121a
'k'k'k'k'kie'k'kltieieletk1e,irkirkic'kietkic1rkiciticietkicktkie,k'kic1e,ktk,k1rkirk1e'k'k'k'k'k1rk

The "officially released” date that appears near the
beginning of this opinion is the date the opinion was
released as a slip opinion. The operative date for the
beginning of all time periods for filing post opinion motions
and petitions for certification is the "officially released”
date appearing in the opinion. This opinion is subject to
revisions and editorial changes, not of a substantive
nature, and corrections of a technical nature prior to
publication in the Connecticut Law Journal.
•k'kie’kieicirkieieirkie’kieieieieicieitieieieirkieieieie'kie'kieieicieieicieifieieieie'k'krkieicieirk

IN RE OMAR I. ET AL*
(AC 43251)
Lavine, Keller and Bishop, Js.
Syllabus
The respondent father appealed to this court from the
judgments of the trial court terminating his parental rights
as to the petitioners, his three minor biological children,
and denying his motion to revoke their commitment to the
custody and care of the Commissioner of Children and
Families. The father claimed, inter alia, that the trial court
erred in concluding that the children had proved, by clear
and convincing evidence, that he failed to achieve a
sufficient degree of personal rehabilitation, as required by
statute (§ 17a-112 (j) (3) (B) (i)), that would encourage the
belief that, within a reasonable time, he could could
assume a responsible position in their lives. Courtappointed attorneys for the children had filed petitions to
terminate the parental rights of the father and the
children's biological mother after the children had been
adjudicated neglected in a prior proceeding and committed
to the custody of the commissioner. The trial court, which
also terminated the mother's parental rights, found that
the children had proved, by clear and convincing evidence,
that the Department of Children and Families had made
reasonable efforts to reunify them with the father but that

122a
he had attempted to manipulate and control some of the
service providers offered to him by the department, and
engaged in coercive and controlling behavior that led to the
failure of the parenting services that had been provided to
the parents. The court also found that the parents could
not adequately meet the children's developmental,
emotional and medical needs, that the parents had not
acquired the ability to care for the children, had failed to
meet some of their basic needs and failed to ensure their
school attendance. The court further found that there was
a pattern of intimate personal violence between the
parents in the presence of the children and that, in the four
years since the children had been removed from the family
home and later placed in foster care, the father consistently
maintained that he had done nothing wrong and failed to
gain insight into his controlling behavior and how it
impacted the children. Held

1. The respondent father could not prevail on his
unpreserved claim that judicial bias deprived him of a fair
trial, as he failed to demonstrate the existence of plain
error: the father's disagreements as to several of the
court's adverse rulings and factual findings were not a
proper basis for a claim of judicial bias and did not
constitute evidence of judicial bias, as those rulings and
findings were plainly based on facts in evidence and were
relevant to the issues before the court, the father's
complaint that the court relit gated the prior finding of
neglect erroneously conflated that finding with the court's
assessment of evidence in the neglect proceeding, the court
having been unable to relitigate the finding of neglect, and
the father did not cite any authority that supported his
belief that the court in a subsequent termination of
parental rights trial may not independently assess
evidence from the prior neglect proceeding in evaluating
whether rehabilitation, which is factually and legally
distinct from neglect, had occurred, and, even if the court
had confined its analysis to his conduct beginning at the
time of the children's commitment to the commissioner, the
father could not demonstrate that there would have been a
different outcome in the termination of parental rights

123a
proceeding; moreover, there was no basis in the record to
support the father's argument that the court precluded him
from calling several witnesses to testify, as he did not cite
to any instance in which the persons he identified in his
brief were precluded from testifying, those persons either
testified or their opinion was before the court, which
considered their testimony in its evaluation of the
evidence, and the father failed to show that the court's
weighing of the evidence in the manner that it did reflected
judicial bias, as the court's written decision explained its
factual findings and why it discounted the weight of certain
evidence and afforded greater weight to other testimony
and evidence.
2. The respondent father could not prevail on his claim that
the trial court improperly found that there was clear and
convincing evidence that he failed to rehabilitate himself,
which was based on his assertion that the court
misconstrued the proper legal standard and the principle
of “coercive control”: the court’s finding that he failed to
achieve sufficient rehabilitation was supported by the
evidence and the reasonable inferences that could be
drawn there from, which included the court’s observation
that he had not recognized his role in the children’s
removal from the home, he continued his pattern of
exerting control concerning the mother and undermining
efforts to reunify her and the children while failing to
recognize how those failures impacted the children, and he
had not gained the ability to set aside his personal interests
and demonstrate an ability to provide a safe, nurturing and
stable home environment for the children! moreover,
contrary to the father’s assertion that the court failed to
limit its inquiry to whether he satisfied the specific steps
that he was issued, pursuant to § 17a-112 (l) (3) (B), to
facilitate his reunification with the children, a
determination with respect to rehabilitation is not solely
dependent on compliance with the specific steps but with
whether the facts that led to the initial commitment of the
children to the commissioner have been corrected, his claim
that the court improperly considered his conduct from the
time the children were removed from the family home
instead of from the time they were committed to the
commissioner’s custody two years later was not logically
sound and lacked legal support, as he was on notice of the

124a
issues that led to the children’s removal and could have
taken steps to address the issues, and he could not
demonstrate that the court misconstrued the meaning of
coercive control, which he based on his claim that, after he
was issued the specific steps, there was no evidence that he
intimidated, threatened or induced fear in the mother, as
coercive control is a factual description of conduct and not
a term of art for which a legal definition exists.
3. This court found unpersuasive the respondent father’s
claim that the trial court improperly determined that the
termination of his parental rights was in the children’s best
interests, which was based on his assertion that the court
disregarded the children’s Muslim religious affiliation^ the
father’s assertion that the court deemed the children’s
religious affiliation insignificant was belied by the court’s
written decision, in which the court observed that,
although the father identified as a Muslim, the length of
his visits with the children had been extended to permit
him to engage in religious instruction with them and the
department had transported the children, at his request, to
a mosque for religious instruction, he had not made any
significant efforts to foster religious beliefs in the children
or engaged in prayer with them, and the children, who had
expressed anxiety about their religious identities, had not
attended religious services prior to their removal from the
family home! moreover, the court properly considered the
religious beliefs of the children, if any, and those of the
mother, who, although she had been a practicing Muslim,
had expressed her desire to introduce the children to other
religious practices, and the father’s assertion that the trial
court’s best interests finding should be overturned, which
was based on his claim that the children had been placed
with foster parents who did not foster the Muslim faith and
had introduced them to religious beliefs that differed from
his Muslim beliefs, reflected a misunderstanding of the
court’s inquiry in the dispositional phase of a termination
of parental rights proceeding, and, even if there were a
legal requirement that the children be placed in a setting
that would nurture their religious faith or that of the
father, he failed to demonstrate how the failure to comply
with such a requirement was a basis on which to challenge
the court’s determination that the children’s best interests
were served by terminate ing his parental rights.

125a

4. The respondent father’s claim that the trial court
improperly found that the department made reasonable
efforts to reunify him with the children was unavailing:
contrary to the father’s assertions that the department
unreasonably prolonged the children’s stay in foster care
for more than four years and failed to achieve permanency
for them, the department took steps to ensure that they
achieved a sense of permanency in that, since the time of
their removal from the family home, they resided with one
another and were cared for by their foster parents, with
whom they bonded and who provided a living environment
that met their physical and emotional needs, and, in light
of the difficulties the father posed in participating in the
services the department offered him and his failure to
provide adequate supervision during visitation with the
children, it was disingenuous for him to blame the
department for the fact that the children were in foster care
for a lengthy period of time! moreover, the department's
placement of the children with a foster family that was not
of the Muslim faith did not undermine the court's
reasonable efforts finding, as the father was afforded
ample opportunity to engage the children in matters of
faith, which he failed to do, and a rational interpretation of
the applicable statute (§ 17a-96) did not require the
department to place the children with foster parents who
would foster the Muslim faith in them.
5. This court declined to review the respondent father's
unpreserved claim that the department was stopped from
supporting the children's petitions to terminate his
parental rights! although the department initially
recommended that reunification efforts continue but
thereafter changed its position by the time of trial and
adopted the children's petitions for termination of the
father's parental rights, there was no trial court ruling on
this issue to review, the father did not provide this court
with any legal basis on which to review his claim and, as a
result of his failure to raise the issue at trial, there was no
evidence to review with respect to why the department
changed its position or whether the fatherchanged his
conduct in reliance on the department's change of position.

126a
6. The respondent father's claim that the trial court
improperly denied hismotion to revoke the commitment of
the children to the care and custody of the commissioner
was unavailing; the father's assertion that the cause
underlying the children's commitment, parental conflict,
no longer existed was contrary to the court's findings,
which were supported by the evidence and the rational
inferences to be drawn from them.
Argued January 16-officially released May 27, 2020**
Procedural History
Petitions by the Commissioner of Children and
Families to adjudicate the respondents' three minor
children neglected, brought to the Superior Court in the
judicial district of New Britain and tried to the court, Lobo,
J.; judgments adjudicating the minor children neglected
and committing them to the custody of the Commissioner
of Children and Families; thereafter, petitions by the three
minor children to terminate the respondent parents'
parental rights, brought to the Superior Court in the
judicial district of Middlesex, Child Protection Session, and
tried to the court, Burgdorff, J.; subsequently, the court,
Burgdorff, J., denied the respondents' motions to revoke
the court's order committing the minor children to the
custody of the Commissioner of Children and Families and
rendered judgments terminating the respondents' parental
rights, from which the respondent father appealed to this
court. Affirmed.
Ammar A. I.,
(respondent father).

self-represented,

the

appellant

Brian T. Walsh, assigned counsel, with whom, on the
brief, were Robert W. Lewonka, assigned counsel, and
Katarzyna Maluszewski, assigned counsel, for the
appellees (petitioners).
Carolyn A. Signorelli, assistant attorney general,
with whom, on the brief, were William Tong, attorney
general, and Benjamin Zivyon and Jane Rosenberg,
assistant
attorneys
general,
for
the
appellate
(Commissioner of Children and Families).

127a

Opinion
KELLER, J. The self-represented respondent father,
Ammar A. I.' appeals from the judgments of the trial court
terminating his parental rights pursuant to General
Statutes § 17a-112 (j) (3) (B) (i) as to three of his biological
minor children, the petitioners, Omar, Safiyah, and
Muneer (children), and denying his motion to revoke the
court's order committing the children to the care, custody,
and guardianship of the Commissioner of Children and
Families (commissioner). The respondent claims that (l)
judicial bias deprived him of a fair trial, (2) the court
improperly found that he failed to achieve such a degree of
personal rehabilitation as would encourage the belief that,
within a reasonable period of time, considering the ages
and needs of the children, he could assume a responsible
position in the children's lives, (3) the court improperly
found that the termination of his parental rights was in the
children's best interests, (4) the court improperly found
that the Department of Children and Families
(department) made reasonable efforts to reunify him with
his children, (5) the department was stopped from
supporting the petitions brought by the children to
terminate his parental rights, and (6) the court improperly
denied his motion to revoke the court's order that
committed the children to the care and custody of the
commissioner.2 We affirm the judgments of the trial court.
The following facts and procedural history are not in
dispute. The respondent is the biological father of the three
children at issue in this appeal. The respondent and the
children's biological mother married in May, 2005, and
separated in 2015. The respondent is also the biological
father of three sons who were born prior to the respondent's
relationship with and marriage to the mother. On
December 18, 2017, Omar, Safiyah, and Muneer were
adjudicated neglected by the court, Lobo, J., and committed
to the care and custody of the commissioner. The court,
Lobo, J., ordered specific steps, pursuant to § 17a-112 (j) (3)
(B), for the respondent and the mother to take to facilitate
the return of the children to them. Thereafter, the
department made efforts to reunify the children with the
respondent and the mother.

128a

In November, 2018, attorneys representing the
children 4 filed petitions to terminate the parental rights of
the respondent and the mother pursuant to § 17a-112 (j) (3)
(B) (i) on the grounds that the children had been
adjudicated neglected in a prior proceeding and that the
respondent and the mother, who had been provided specific
steps to facilitate reunification, had failed to achieve such
a degree of personal rehabilitation as would encourage the
belief that, within a reasonable time, considering the ages
and needs of the children, they could assume a responsible
position in the lives of the children. The court, Burgdorff,
J., conducted a trial on the petitions over the course of
fifteen days between January and April, 2019. Although
the commissioner did not initially support the position of
the children, she did so by the time of trial. On July 26,
2019, the court issued a thorough memorandum of decision
in which it terminated the parental rights of the
respondent and the mother and denied the parents'
motions to revoke the order committing the children to the
care and custody of the commissioner 6. This appeal by the
respondent followed 7.
TRIAL COURT'S MEMORANDUM OF
DECISIONS s
A
Relevant Procedural History
In its well reasoned and thorough memorandum of
decision, the court set forth the following procedural
history: “This family first became involved with (the
department) in 2011 due to issues of physical and
emotional neglect. A report was made to [the department]
concerning (the) mother's concerns that Safiyah had a rash
in her vaginal area, which [the] mother felt was related to
[the respondent's] older son, Oais, having [had]
inappropriate sexual contact with her, as observed by [the]
mother. No trauma was noted by Safiyah's physician, and
the allegation was unsubstantiated. On February 11, 2012,
[the department] received an anonymous report from [the
respondent's] oldest child, Adnan, that [the] mother was
suffering from schizophrenia and that she had accused him
of making sexual advances against her.... The allegations

129a
were unsubstantiated. On April 12, 2012, [the department]
received a referral from St. Vincent's Behavioral Health
reporting that Adnan had been admitted to the hospital on
March 30, 2012. Adnan was diagnosed with mood disorder,
anxiety, post-traumatic stress disorder and polysubstance
abuse. Adnan admitted to a suicide attempt when jumping
out of a car [the respondent] was operating en route to the
police station to report Adnan's stealing.... [The
respondent] and [the] mother refused to take him home
from the hospital. The allegations of physical neglect were
substantiated, and Adnan was adjudicated neglected and
removed from [the respondent's] care on April 20, 2012. He
was committed to [the department] until his eighteenth
birthday. On April 9, 2015, [the] mother contacted the
Plymouth Police Department to report her concern that
[the respondent] had allowed Oais in the family home and
reported that he had a history of sexually inappropriate
behavior with Safiyah, and that [the respondent] had
directed (the) mother to lie to [the department] about what
she had witnessed. On May 16, 2015, [the respondent]
reported to [the department] that [the] mother was
diagnosed with mental health issues, including manic
depression and anxiety, and was prescribed with many
medications that she left around the house, which [the]
mother denied. The allegations by [the respondent] were
unsubstantiated^
After [the] mother and [the respondent] separated in
May, 2015, [the respondent] moved out the family home.
On July 29, 2015, [the respondent) filed sa motion for) an
emergency ex parte order of temporary custody along with
a sworn affidavit with the Superior Court for family
matters in New Britain . ... [The respondent) reported
[that] he filed the motion for [an] ex parte order of custody
with the expectation that he would be awarded immediate
custody of the children. The court, Abery- Wet stone, J.,
issued a bench order of temporary custody removing the
children from (their) parents' care, and vested their care
and custody with [the commissioner) based on the
allegations contained in [the respondent's] affidavit. The
[order of temporary custody] was sustained on August 7,
2015, [by the court, Frazzini, </.].“

130a
Thereafter, on the evening of July 29, 2015, and
after the issuance of the order of temporary custody), the
Plymouth Police Department contacted the [department's]
Careline to report that [the] mother [had] reported that the
respondent had] texted her, stating that he was outside of
the home and demanded to be let in,' that (the respondent]
had previously texted [the] mother threatening messages
stating that he had hidden in the garage on a prior occasion
to watch for [the] mother's boyfriend, and that, if he found
an intruder in his home, he had the right under the law to
kill any home invader who enters the home. [The] [m]other
reported that she texted [the respondent] to tell him [that]
he did not have permission to enter the home and to leave.
[The respondent) then entered the home against her
wishes. [The] [m]other reported that, upon hearing [the
respondent in the home, she locked the children in the
bathroom and she locked herself in a bedroom! that (the
respondent] forced himself into the bedroom! that [the]
mother was struck by (the respondent on the arm and was
struck in the head with a glass bottle resulting in a cut to
her head. When the police arrived at the home, they
observed [the] mother bleeding, with a cut approximately
one inch [in length] over her right eye. [The respondent)
admitted to going in the locked family home and entering
the home with the garage door opener against [the]
mother's wishes and that he refused to leave when [the]
mother requested him to do so. [The mother reported that
the children did not witness the violence. However, the
children reported to the police [that] they heard [the]
mother and [the respondent] arguing, witnessed [the]
mother bleeding after the assault, and saw her being
transported from the home by ambulance. [The] [m]other
reported to the police that 'she has been subjected to
physical and mental abuse from the respondent throughout
the course of the marriage.'
(The respondent] denied assaulting [the] mother and
stated that she self-inflicted her injuries. [The respondent]
was arrested on July 30, 2015, and charged with [assault
in the second degree, reckless endangerment in the second
degree, disorderly conduct, burglary in the third degree,
and three counts of risk of injury to a child). The
investigating detective testified during the neglect trial

131a
that [the] mother's financial situation would be potentially
compromised if [the respondent] was charged.
[The] [m]other chose not to cooperate with the police.
The charges against [the respondent) were subsequently
dismissed. “[The respondent] later contacted the Plymouth
Police Department on at least three occasions requesting
that [the] mother be charged [with] filing a false report and
three counts of risk of injury [to a child) regarding the July
29, 2015 domestic violence incident. The investigating
detective found no probable cause for either charge after
reviewing forty thousand texts from [the] mother's and the
respondent's] cell phones, which were given to the detective
by [the respondent]. "[The] [m]other also had a protective
order on behalf of herself and the children against [the
respondent] as the result of the domestic violence incident.
The protective order was subsequently modified to allow
[the respondent] supervised visitation and ended in
October, 2015. The three children were removed from the
home on July 29, 2015, and have been in their current
foster home since July 31, 2015.... Neglect petitions were
subsequently filed on August 7, 2015, by (the
commissioner), alleging that the children were being
permitted to live under condition[s], circumstances or
associations injurious to their well-being, due to their
exposure to domestic violence between the parents, and
educational neglect. [The department) reported that
during the 2014—2015 school year, Omar was absent
twenty-one days and tardy eighteen times, Safiyah was
absent eighteen times and tardy twenty-three times, and
Muneer was absent forty times and tardy nine times.
Further, all three children had bed-wetting issues when
placed in their current foster home. All three were wearing
diapers and did not know basic hygiene. All three children
required a high level of supervision and had special needs.
All three children also exhibited inappropriate sexual
behavior in the foster home. After a mistrial, the children
were adjudicated neglected by the court (Lobo, J) in a
bench decision of December 18, 2017, and committed to the
care and custody of the [commissioner]. [The
commissioner)
filed
permanency
plans
seeking
reunification of the children with placement with the
mother under a period of protective supervision. In
November, 2018, the minor children ... filed petitions for

132a
termination of [the] mother's and (the respondent's]
parental rights. (The) petitions were subsequently adopted
and supported by the commissioner) at the time of trial.”
B
Mother
The court made findings with respect to [the]
mother, which we set forth in large part because they are
integral to an understanding of the court's findings with
respect to the respondent and the living conditions to which
the children were exposed while in the care of their
biological parents.
“[The] [m]other reported that she was eighteen years
old when she met [the respondent] on a computer website
when researching Islamic culture due to her interest in
converting to Islam. They commenced an online
relationship. Within two weeks of commencing that
relationship, [the respondent] flew [the] mother to
Connecticut. They married shortly thereafter on May 6,
2005, because Islamic law prohibited cohabitating before
marriage. ..."
[The] [m]other was completely dependent on [the
respondent] financially throughout the marriage. At [the]
time the children were removed, [the] mother reported that
she had less than § 100. Her work history has consisted [of]
helping out [the respondent) in his dental practice .... "
[The] [m]other engaged in an extramarital affair
with ‘George' prior to the removal of the children from the
home and prior to her separation from [the respondent].
[The] [m]other exchanged explicitly graphic sexual photos
with George. [The respondent] saw the photographs when
he took [the] mother's cell phone from her without
permission. As noted (herein], [the] mother and [the
respondent] had three children, Omar, Safiyah, and
Muneer. At the time of their marriage, [the respondent]
had three older sons: Adnan . . . Muhammed ... and Oais .
... [The] [m]other reported that [the respondent) informed
her that Oais' and Muhammed's mother severely abused
Adnan, a child from his first marriage, and that [the
respondent] divorced her but allowed Oais and Muhammed

133a
to remain in her custody. [The] [m]other reported that
Adnan returned to his mother's care in Syria. Adnan
returned to reside in the family home when he was
approximately thirteen years old. For a period of time, all
three of [the respondent's] older children lived in the home,
along with the three younger children, Omar, Safiyah, and
Muneer. Due to [the] mother's becoming overwhelmed with
raising six children, a series of nannies and babysitters was
hired to assist her. [The] [m]other left most of the
childrearing to the nannies.
"After separating from the respondent) and after the
children's removal, [the] mother eventually moved out of
the leased family home and relocated to Norwich A9 in
November, 2015, where she rents a three bedroom
apartment. She testified during [the] trial that she found
employment but had not yet commenced working. ...
“[The] [m]other . . . reported that she had a trust
fund containing approximately § 130,000 to § 180,000 at
the time of her marriage. She gave those funds to the
respondent] to open up his own dental practice. (The
respondent] agreed to pay her back but (she] said [the]
agreement was never formalized, and it has not been paid
back. Since (the) mother's and [the respondent's] divorce,
[the] mother has received additional financial assistance
from [the respondent], in addition to ... alimony payments,
including the purchase of a motor vehicle. [The] [m]other
testified that if the court terminated (the respondent's]
parental rights, she would continue to seek financial
assistance from the respondent] to assist her in caring for
the children if they were returned to her care.
"[The] [m]other reported observing inappropriate
sexual touching of Safiyah and Muneer by Oais in 2012.
[The] [m]other expressed her concerns to [the respondent]
as to the sexual contact. [The respondent] repeatedly
expressed denial of any sexual misconduct by Oais and
threatened [the] mother not to report it. ... "
[The] [mother reported that Omar, Safiyah, and
Muneer were exposed to a video recording of [the] mother
and [the respondent] engaging in sexual acts that was
filmed by [the respondent]. [The] [m]other reported that

134a
she consented to being in the videos with (the respondent]
but that the respondent] allowed the video to be streamed
to other devices in the home, which the children
inadvertently saw. [The respondent] admitted to filming
the sexual activity but blamed [the] mother for (its] being
seen by the children.
"[The] [m]other and [the respondent] divorced on
August 15, 2016 (Charbonneau, J.). The court ordered that
all issues regarding the children were referred to the
juvenile court in light of the issuance of the [order of
temporary custody] and pending neglect petitions. "
[The] [m]other reported that (the respondent]
exhibited controlling, abusive and possessive behavior
toward her throughout the marriage. She also reported
ongoing domestic violence and coercive control by (the
respondent]. [The] [m]other reported that [the respondent]
would control her financially by refusing to let her work
outside of the home, Unfitting] the use of her motor vehicle,
and staking] her cell phone. He also threatened to take the
children out of the country and threatened that she would
never see them again. [The] [m]other also reported that
[the respondent] took the family out for a ‘last supper' on
July 27, 2015, at which time he confronted [the] mother
about her affair, all in the presence of her children. He also
began swearing at her and degrading her in front of the
children while driving the car, and . . . drove in an erratic
manner and sped through red lights. “
[The] [m]other denied the allegations made by [the
respondent) in his [previously) referenced affidavit to the
family court on July 29, 2015. She also reported that, on
the evening of July 29, 2015, as also discussed [previously],
[the respondent] texted [the] mother regarding breaking
into the family home, that he would be waiting in the
garage with a gun to shoot her lover, that he had a knife
and would kill her lover, that she told [the respondent) to
leave the home, and [that] they engaged in a physical
struggle at which time [the respondent struck her in the
face with a glass oil diffuser. ...
[The] [m]other stated that she did not want to
pursue the criminal charges against the respondent]

135a
because she would be without any financial support if he
were incarcerated. ... "
[The] [m]other was also referred to a Women and
Healing Group at [the] Wheeler Clinic to address her
domestic violence issues in her relationship with the
respondent]. [The] [m]other has engaged in group therapy
since August 10, 2015. [The] [m]other's therapist noted
that [the] mother's presentation was consistent with a
victim of domestic violence. ...
“Prior to [the department's] involvement, [the]
mother was engaged in individual treatment and therapy
at Bristol Psychiatric Services commencing in October,
2011, until November, 2014. She reengaged in services . . .
on March 11, 2015, and then reengaged in services with her
prior therapist in December, 2015. [The] [m]other's
therapist diagnosed her with post-traumatic stress
disorder, attention deficit hyperactivity disorder, and panic
disorder. ... Her therapist also reported that [the] mother
was experiencing ongoing stress regarding her divorce
from the respondent) and the accusations he made against
her. [The] [mlother's goals were to focus on her relationship
and co-parenting with [the respondent], and how the
relationship impacted the children. ... The therapist also
noted that [the] mother worked on the conflict issues with
[the respondent] but also acknowledged her deep fear of
[the respondent) and his continued controlling behaviors.
[The] [m]other also acknowledged [that] her fear of [the
respondent] could impact their ability to co parent the
children. ... [The] [mjother continued therapy until June,
2018, when her therapist moved out of state. Currently,
[the] mother is not engaged in individual therapy, nor has
she sought out a new therapist since that time. "
[The] [m]other participated in family therapy with
the children and their therapists, Michael DeRosa and
Kristin Baker, commencing in July, 2018. [The respondent]
did not participate along with [the] mother, as the
therapists felt that (the respondent] was not 'grounded
enough to make progress in family therapy' with the
children. ...“

136a
[The]
[m]other underwent a court-ordered
psychological evaluation with Dr. Stephen Humphrey, a
licensed clinical psychologist, commencing in October,
2015. Dr. Humphrey completed psychological evaluations
of [the] mother, [the respondent], and internationals with
the three children. He also completed updated
psychological evaluations and internationals in 2018.
“After the initial evaluation, Dr. Humphrey reported that
the respondent] stated that [the] mother was suicidal;
however, Dr. Humphrey found no indication of that from
her interview with him or from her demeanor, nor did she
present with any obvious mental disorder. He also found
no support of a substance abuse disorder, also contrary to
[the respondent's] claims. He recommended that [the]
mother continue with her therapy and support groups.
“Dr. Humphrey opined in his initial report that (the
children] . . . had been living in a conflict-laden home
environment that has included allegations of intimate
partner violence, educational neglect, and counterclaims of
parental inadequacy and neglect . .. and ... the parents'
relationship is likely to remain contentious.' Dr. Humphrey
noted that he could not emphasize enough how
psychologically toxic this conflict between parents is for
young children.' He also opined that the children should be
engaged in individual supportive psychotherapy to address
the likely effects of past exposure to interfamilial strife and
conflict, and moderate the effects of any future conflict.'...
“In his updated evaluation in March and April, 2018,
Dr. Humphrey reiterated that [the] mother needed
continued services to help her 'to understand the nature
and history (including any contributions of trauma and
psychosexual variables) of her engagement with men who
(by her report) place her at risk for victimization and
coercive control .... He further noted that he 'was
concerned about the degree of dependence (the mother)
showed [the respondent] . . . given his proclivity toward
behaviors that are intrusive and controlling' and that she
could continue therapy that will ‘ideally help (the mother)
to avoid emotional or other forms of dependence on the
respondent], and to develop positive, healthy and
supportive relationships with others.' ... [With regard to
the children's developmental delays, the mother's

137a
recognition of these delays] 'falls far short of recognizing
how delayed [the children] were, and does not incorporate
an acknowledgement of how much school the children were
missing in her care.'
“Notably, [the] mother has never engaged in the
psychosexual therapy recommended by Dr. Humphrey.
Further, Dr. Humphrey recommended co-parenting
sessions for [the] mother and [the respondent). As
discussed below, they did not begin those services until...
approximately three years after the recommendation by
Dr. Humphrey, and the initial services were unsuccessful.
“Pursuant to the court-ordered specific steps and Dr.
Humphrey's recommendation, [the] mother and [the
respondent) participated in co-parenting services with
Attorney Emily Moskowitz commencing in January, 2018.
Notably, the respondent] unilaterally provided Attorney
Moskowitz with the police reports regarding the July 29,
2015 domestic violence incident at his first session with
her, although Attorney Moskowitz testified that she did not
review them. Initially, [the] mother was reported by
Attorney Moskowitz to be making progress. [The] [m]other
reported that she and [the respondent] were making
progress, as did [the respondent]; however, [the] mother
did not feel respected by Attorney Moskowitz in the
sessions and felt [that] Attorney Moskowitz 'had the
understanding that the respondent] was good to me and I
fabricated everything....' [The] [m]other also reported that
during the first co-parenting session with (the respondent],
[the respondent] stated that the foster parents were
'poisoning the kids with Christianity.' It was also reported
that [the respondent] complained about the foster parents
... alienating the children from [him]. [The respondent] also
falsely reported to Attorney Moskowitz that [the] mother
was not seeking custody of the children and that she was
unfit to parent the children. [The] [m]other discontinued
the services with Attorney Moskowitz due to her
impression that her concerns were not being adequately
heard. [The] [mother also reported that the reports being
made to [the department] by Attorney Moskowitz did not
accurately reflect what occurred during the sessions. When
[the] mother requested permission to tape the sessions, she
was refused, at which time the sessions ceased. [The]

138a
[m]other credibly testified that Attorney Moskowitz took
[the respondent's] side and accepted [the respondent's]
misrepresentation that the children were being returned to
his care. The court finds [the] mother's concerns wellfounded based on the credible evidence presented. The
court found Attorney Moskowitz to be clearly biased
against [the] mother in her reports to [the department] and
during her testimony, primarily due to the respondent's)
attempts to control and influence the sessions. [The]
[m]other and [the respondent] engaged with another
parenting coordinator, Rabbi (Andrew P. Hechtman),
during the pendency of the [termination of parental rights]
trial, as discussed in further detail....
"The children have consistently reported enjoying
their visits with (the) mother; however, they have also
consistently maintained that they wish to remain in their
foster home. It was observed that [the] mother was having
difficulty, at times, in handling the children and keeping
track of their appointments and required assistance from
[the department]. [The] [m]other has also developed a good
relationship with the foster parents.”
C
Respondent
The court made the following findings concerning the
respondent^ "[The respondent) ... was born on September
16, [1966], in Saudi Arabia. He received his early education
in Saudi Arabia and emigrated to the United States in 1989
to further his education. He attended the University of
Connecticut, where he received his dental degree, and
Tufts University, where he received a certificate in special
pediatric dentistry. [The respondent) has owned his own
dental practice since 2007. He also works as a pediatric
dental surgeon at Connecticut Children's Medical Center.
[The respondent] was issued a § 10,000 fine and three years
of probation in September, 2018, following concerns of
unnecessary dental practices. The respondent] denies any
wrongdoing. [The respondent) is reportedly in good health.
“[The respondent's] criminal history involves an
arrest on July 29, 2015, stemming from the domestic
violence incident involving [the] mother at the family home

139a
as discussed in detail [previously]. [The respondent]
admitted he went to the home and that he entered with the
garage door opener because the doors were locked; that
[the] mother asked him not to enter the home but he did so
anyway, and he admitted to sending [the] mother text
messages of a threatening nature, including that he would
enter the home with a knife. [The respondent] admitted to
engaging in an argument with [the] mother upon entering
the home but denied that it was confrontational or that
there was a physical altercation. He reported that [the]
mother self-inflicted the injuries she sustained during the
altercation. He reported that he was arrested the next day,
and a protective order was issued against him on behalf of
[the] mother and the children. He was charged with
[assault in the second degree, reckless endangerment in
the second degree, disorderly conduct, burglary in the third
degree, and three counts of risk of injury to a child). [The
respondent] was placed on [the department's] central
registry but his name was subsequently removed. He also
expressed that his placement on the department's] central
registry has threatened his ability to maintain his (dental]
license. The criminal charges were dismissed on September
28, 2016. ... [The respondent] contacted the police
department the day after the incident at the family home
and requested that [the] mother be charged with three
counts of risk of injury [to a child). [The] charges were not
filed, as no probable cause was found. The respondent) has
filed numerous motions against [the] mother in the family
court, including a motion for contempt/sanctions for
penury on March 6, 2016; [a] motion to open [the
dissolution] judgment based on fraud on October 29, 2018,
wherein he alleged (fraud on the part of the mother and her
attorney with regard to the divorce decree; (and an]
objection to (the) plaintiffs objection to [the] father's
motion to open based on fraud on October 29, 2018, which
is currently pending. In addition, [the respondent] filed a
§ 9,000,000 civil action for damages against [the] mother
related to the July 29, 2015 domestic violence incident. In
the juvenile court, [the respondent] has filed at least nine
motions directed at [the department] and the foster
parents. “
[The respondent) has been married three times. He
was married to his first wife in 1993. The marriage ended

140a
after the birth of his first child, Adnan, in 1995. [The
respondent) reported that Adnan's mother abandoned
Adnan. In 1997, he married his second wife. That marriage
produced two sons, Muhammed and Oais. That marriage
lasted seven years. [The respondent] reported to his
psychologist that he threatened to expose Oais' and
Muhammed's mother's violence toward the children if she
did not give him custody of Muhammed and Oais. [The
respondent] also reported that his second wife abused
Adnan physically. “She forced him to eat, poured hot water
on him, strangled [him], and kicked him.' [The respondent)
reported that he felt guilty for being ‘oblivious to what was
going on with Adnan.'
“As discussed [previously in the recitation of facts
concerning (the) mother, the respondent] married [the]
mother in 2005, when [the] mother was eighteen years old
and [the respondent] was thirty-eight years old. They
married three weeks after they first encountered one
another on the Internet. At the time of the marriage, [the
respondent's] two older sons, Muhammed and Oais, were
living in his home, and [the] mother reported that she
helped raise them. The (children] . . . were born of that
marriage. ..."
[The] [m]other and [the respondent] separated in
May, 2015. On May 15, 2015, (the respondent] was served
with the divorce paperwork. On May 16, 2015, [the
respondent] called [the department's] hotline to report
alleged neglect of the children by [the] mother. The
marriage dissolved by way of divorce in August, 2016. [The
respondent] subsequently reported to (the department]
that he was engaged to a woman who resided in Arizona
and ... would be residing with him in his home. [The
respondent] refused to disclose her name and address to
the department]. He later reported that he is no longer
engaged to her "
[The respondent] currently resides in a home with
his adult sons, Oais and Muhammed. Of note, contrary to
his court-ordered specific steps, (the respondent] failed to
inform [the department] of Oais' and Muhammed's
presence in the home when supervised visits in the home
with (the children] ... commenced. “[The respondent] has

141a
consistently and repeatedly denied any physical violence
against [the] mother and [has maintained] that the injuries
sustained by [the] mother were self-inflicted. However, the
respondent] testified at trial that he shoved or pushed [the]
mother away on at least one occasion. He also admitted to
taking [the] mother's car and cell phone without her
permission after she commenced the divorce proceedings.
He attributed the allegations of domestic violence made by
[the mother due to [the] mother's affair with her boyfriend.
[The respondent] hired a private detective to perform an
extensive background check on [the] mother's boyfriend
and... the investigator followed [the] mother. As discussed
[previously), the court finds that the credible evidence
presented in this matter confirms [the] mother's account of
what transpired at the family home on July 29, 2015.
“Pursuant to his court-ordered specific steps, [the
respondent] was ordered by the court to engage in mental
health services and focus on the patterns of intimate
partner violence, co-parenting and dispute resolution.
"[The respondent] underwent a court-ordered
psychological evaluation with Dr. Humphrey) in October,
2015, including internationals with the children. Dr.
Humphrey also performed supplemental evaluations in
2018. Dr. Humphrey conducted the personality assessment
inventory with (the respondent) and found it to be of
questionable validity in that [the respondent] ‘responded in
a manner to portray himself to be relatively free of common
shortcomings to which most individuals admit.' He did not
find any evidence of mental illness but noted that [the
respondent] exhibited some grandiosity and the desire to
maintain strict control in relationships. He reported that
[the respondent] did not believe he would benefit from any
therapeutic interventions. He opined that the marriage
between [the] mother and [the respondent] ‘was marked by
indicators of coercive control on the part of the respondent]
’and was a highly conflictual relationship. He also noted
that (the respondent] denied any problems of a
psychological nature, including depression. Notably,
during his credible testimony, Dr. Humphrey reported that
there were issues of intimate partner violence and power
control in the relationship, and that the texts between [the]
mother and [the respondent] reinforced [the] mother's

142a
position that [the respondent] was trying to control her
behaviors via threats of violence and coming into the home.
He also opined that the fact that the charges against [the
respondent] were dismissed did not change his opinion that
there was a larger pattern of control. He noted that (the
respondent's) entering the family home against [the]
mother's wishes was concerning and that the co parenting
with [the] mother would be an ongoing issue.
“Dr. Humphrey noted that [the respondent) reported
a limited role in the direct day'to-day care of the children
when they were in his care, that the mother) was tasked
with taking care of the children with the aid of nannies and
babysitters, that [the respondent) was unaware of the
children's absences from school and tardiness, and that
[the respondent] stated that making sure the children got
to school was [the] mother's job.' After the initial
evaluation, Dr. Humphrey opined that the children should
remain in their current foster home until [the] mother and
the respondent] engage in services with a one year period
of protective supervision! thereafter, and if [the] mother
and [the respondent] followed his recommendations, he
would support reunification of the children, with each
parent to follow a shared parenting agreement. He
recommended [that the respondent's] visitation with the
children increase to two hours a week, and if [the
respondent] established and engaged in the recommended
services, he should have three hours of unsupervised visits
one day each weekend. Dr. Humphrey also recommended
that the children have no contact with their older (half
siblings] unless it occurred during their therapy. He also
recommended that [the] mother and [the respondent]
engage a parenting coordinator to facilitate effective
communication between [the] mother and [the
respondent], resolve parenting disputes, and help the
parents to understand assessments of the children. He
further recommended that the majority of the
communication should occur in the presence of the
parenting coordinator or through monitored e-mails.
Notably, Dr. Humphrey opined that the parental
psychopathology is not the heart of the problem but, rather,
the intense parental conflict that is of concern.' He also
noted that a thorough psychological (custody) evaluation
was ‘essential if the family court litigation proceeded.

143a

“Dr. Humphrey recommended individual therapy for
[the respondent) with specific goals and objectives with the
primary goal of focusing on and addressing his coercive and
controlling behaviors, in addition to improving his coparenting skills. He also noted that the children appeared
comfortable
with
(the
respondent]
during
the
internationals in 2015 and that he had a positive
relationship with them.
“During Dr. Humphrey's testimony [at] the neglect
trial on October 19, 2017, Dr. Humphrey discussed a tape
recording made by the respondent] of his conversation with
Omar during a supervised visit, wherein [the respondent]
was asking Omar which parent was nicer. Dr. Humphrey
testified that he found this was concerning because:
“[T]here's a great pressure on Omar to decide how to
answer the question in a way that would please a parent...
and then in several ways in the recordings, he urges Omar
to answer the question in a way that he wants to hear it
answered. The answers tend to be favorable to the
respondent] and unfavorable to the mother].' In addition,
with regard to the other recordings made by (the
respondent] during the visits with the children wherein the
visitation supervisor instructed [the respondent] not to ask
the children questions about attending church with their
foster family, Dr. Humphrey opined that the impact of
exposing the children to this kind of discord, intention, the
tenseness in the voices, and the persistence of asking the
same questions in a somewhat insistent way, I am
concerned it shows at least some lack of regard for the
effect of those things on the children .... [T]he concerns
for the recordings to me aren't about necessarily control
and coercion, although there's an element there. There's an
element of persistence to pressure a situation to get the
result you want regardless of... the consequences .. . [and]
the appreciation for the ways in which these things affect
the children psychologically, exposure to this level of
conflict, exposure to a comparison of [the] mother and [the
respondent], casting one as good and the other [as] bad, and
exposure to conflict with adults, bringing the children into
the conflict.

144a
“Dr. Humphrey also noted at that time that he was
‘less optimistic that there can be a prompt resolution to the
matter if the parents ... have not engaged to this point in
the efforts I recommended at working on co-parenting
issues.... He further noted that 'it was less likely that [the]
mother and the respondent] would be able to overcome
[the] conflict that marked their relationship. ... I don't
know whether any efforts [at] psychotherapeutic
intervention are going to yield any increased degree of
insight or awareness of child protection concerns ....'
"With regard to the domestic violence incident of
July 29, 2015, Dr. Humphrey noted in his report that his
primary concern ... was [the respondent's] disregard of
[the] mother's request that he not enter the home, 'which
came after he had made threats of violence in [a] series of
text messages. During his testimony at the neglect trial on
October 19, 2017, Dr. Humphrey noted that the [text
messages] sent by (the respondent] ‘support the notion that
(the respondent] would engage in verbalizations that would
cause fear or intimidate (the mother), make her feel that
he might do something dangerous or he might engage in
threatening behaviors which would potentially cause her
fear for herself [and] fear for the children.' He also testified
that he was disheartened by the delay in commencing coparenting services, which had not yet commenced, and that
(such delay] increased his doubts that the parents could get
past their conflicts.
“Dr. Humphrey conducted updated psychological
evaluations and internationals in March and April, 2018.
Of note, Dr. Humphrey reported that during this session
with (the respondent], [the respondent] sought information
and opinions from Dr. Humphrey regarding specific areas
[the respondent] wanted to address, and frequently
discussed information already covered in the first
evaluation, even after Dr. Humphrey made it clear to [the
respondent] that these areas were] not the focus of the
current evaluation. Dr. Humphrey opined after the second
evaluation that the issues of intimate partner violence and
coercive control continued to exist in the family dynamic
and that [the respondent] continued with his controlling
behavior since the prior evaluation. Upon being informed
that [the respondent] had contacted [the] mother's attorney

145a
requesting permission to communicate with [the] mother's
therapist to ensure that the therapist was aware of [the]
mother's behaviors,' Dr. Humphrey noted that
“remarkably . . . [the respondent) said he has not exhibited
any controlling behavior in two years ... he continues to
minimize his past behaviors' and that (the respondent)
reported that in the past [that] ‘there was an aspect of
control' but ‘not the kind that could cause damage.' Dr.
Humphrey recommended that (the respondent] continue
his therapy with Dr. (Jason] Gockel, who appeared to have
[a] good understanding of [the respondent's] control issues
and had made progress with him. Dr. Humphrey also noted
that he found it ‘compelling that [the respondent's) older
children were developmentally behind and that Adnan's
significant problems .. .led to child protection involvement.
Ultimately, the children, (whom the respondent] and [the]
mother raised together, were also developmentally delayed
in various ways. ... The more likely explanation for [the]
children's delays (which have been remedied) and poor
socialization is not innate dysfunction but, rather, poor
socialization and lack of ... support and stimulation.' He
noted that (the respondent) suggested [that] his
responsibility for meeting the children's day-to-day needs
was diminished because he felt this was [the] mother's role,
and he had trouble understanding that he also shared
responsibility.
"[The respondent] engaged in individual therapy
with Bill Powers. He reported that [the respondent's]
‘narcissism runs deep' and that he has 'a need to be a better
parent.' He noted that he believes that the respondent] is
more controlling than he sees himself. [Powers] opined that
he did not believe that [the respondent] could make
progress with addressing this in individual therapy. He
confirmed that the respondent] addressed Dr. Humphrey's
recommended goals 'to the degree he can' but [the
respondent) is ‘perceived as being controlling.' He further
noted that [the respondent] was engaged in therapy only to
meet the requirements of the court. Notably, [Powers)
reported that [the respondent] conveyed that the
allegations of domestic violence were not accurately
portrayed and that it was the domestic violence incident
(rather than the allegations in [the respondent's] affidavit

146a
filing in family court) that resulted in the children's
removal from the family home. ...
"[The respondent] also engaged in the [previously]
mentioned co-parenting services with Attorney Moskowitz.
. . . As noted [previously), the court finds [the] mother's
concerns regarding the co-parenting (sessions] with
Attorney Moskowitz well-founded due to [the respondent's]
attempt to control the narrative of the sessions. . . .
Attorney Moskowitz testified that [the respondent)
informed her that there was an agreement that the
children would be reunited with [him), that [he] would be
in charge, that he would work out a parenting schedule
with [the] mother and that the children would be raised in
the Muslim faith. Attorney Moskowitz did not
independently verify the veracity of this information. This
further gives credence to [the] mother's representation that
she was not being listened to by Attorney Moskowitz. The
court found Attorney Moskowitz' testimony unpersuasive,
as she was clearly aligned with (the respondent) and biased
against [the] mother. As a result, the co-parenting sessions
ended unsuccessfully. ...
“[Next, the respondent] retained Rabbi Hechtman, a
licensed family therapist, and engaged in co-parenting
services with [the] mother shortly after the commencement
of the [termination of parental rights] trial. Dr. Hechtman
testified that the mother and (the respondent) were
participating in the services but continued to require
additional work on their co-parenting issues. Notably, he
reported that they realized the seriousness of this matter
only after the [termination of parental rights) petitions
were filed.
“[The department] engaged in a search for doctoral
level therapists to provide [the respondent] with [an]
individual therapy (provider who] would accept his
insurance and be in close vicinity to his home. Several
therapists were recommended; however, [the respondent]
was not in agreement with the referrals. [The respondent)
retained Dr. Leslie Lothstein, Ph.D., a clinical
psychologist. Dr. Lothstein testified that he relied on [the
respondent's] statements and his 'word' in formulating his
report.... [The respondent) met with Dr. Lothstein in June

147a
and August, 2016. Dr. Lothstein interviewed [the children]
... on June 13, 2016, and November 28, 2016, and Oais and
Muhammed on November 28, 2016. According to Dr.
Lothstein's report, dated December 16, 2016, he also
conducted a live video camera interview with Safiyah and
reviewed Facebook postings of [the] mother, including
writings and pictures. He also spoke with (the
respondent's] spiritual advisor. He did not interview [the]
mother. . . . He did not speak to any [department] social
workers. He did not speak to the foster parents. Dr.
[Lothstein] testified [that the respondent] handed him a
packet of information after the completion of his report and
prior to his testimony in court in November, 2017. [This
information] included Dr. Humphrey's report in addition to
Detective [Damien] Bilotto's report regarding his
investigation of the domestic violence incident of July 29,
2015. Notably, Dr. Lothstein did not independently verify
the veracity of any of the respondent's] statements to him
and solely relied on the information provided to him by [the
respondent) in formulating his opinions and answers. . .
"The court finds Dr. Lothstein's report and
subsequent testimony unremarkable due to the clear
misrepresentations of information given to him by [the
respondent) and pursuant to the court's review of all of the
credible evidence submitted in this case. The court further
notes the lack of the veracity by the respondent] of the
clearly self-serving 'facts' given to Dr. Lothstein, especially
with regard to the circumstances surrounding the
allegations made against [the] mother in (the respondent's)
affidavit filed with his application for the order of
temporary custody and the domestic violence incident of
July 29, 2015. Most troubling is (the respondent's]
representation to Dr. Lothstein that [the] mother did not
want custody of the children and was abandoning them.
With the exception of Dr. Lothstein's opinion that [the
respondent] 'is overly controlling and obsessive, and that
(the respondent] had little insight [into] the reasons for the
failure of his marriages, and that there were still factors of
intimate personal violence present in [the] mother's and
[the respondent's] relationship, the court gives no credence
to any of Dr. Lothstein's opinions and conclusions, as they
are based on inaccurate, flawed and biased information
given to him by [the respondent]. Further, Dr. Lothstein

148a
did not independently verify any of the information given
to him by [the respondent). Therefore, Dr. Lothstein's
report was ultimately of no assistance to the court, with the
exception of his findings as to [the respondent's] overtly
controlling behavior.
“In January, 2018, [the respondent) reported to (the
department] that he [had] cancelled an appointment with
a therapist due to receiving negative feedback about him.
This resulted in a further delay in treatment for the
respondent]. [The respondent) then informed [the
department] that he scheduled an appointment with [Dr.
Gockel] on January 22, 2018, who was directly retained by
the respondent].
“According to Dr. Gockel, [the respondent] reported
to him that he was seeking services to satisfy a court order
'demanding that he complete six sessions on issues of
control and the impact this may have on his children.' As
noted by Dr. Gockel in his intake note, (the respondent]
‘appeared to need to make [Dr. Gockel] understand his
innocence regarding the charges of domestic violence and
to reassure [him] that he is not a violent individual.' He
further noted that [the respondent) reported a history of
depression but appears to be suffering from ongoing
adjustment disorder related to the removal of his children
and ongoing frustrations with the legal system . . . [and]
there appears to be an underlying layer of anxiety with
possible mild paranoia as he discusses the system being
against him.' During the course of the sessions, Dr. Gockel
reported that [the respondent] appeared to have difficulty
in acknowledging his role in the removal of his children and
externalized blame. He also continued to express anger and
frustration with regard to [the] mother. While [the
respondent] did appear to make progress toward accepting
his role in the collapse of his marriage and the removal of
his children, Dr. Gockel also noted that [the respondent]
appeared 'to struggle with obsessive thinking that results
in compulsive behaviors.'
"[The respondent] is currently engaging in weekly
therapy with Dr. Gockel. Dr. Gockel reported that (the
respondent) is making progress with his goals and
continues to demonstrate insight into his role in his

149a
marriage without placing blame on [the] mother. He also
reported that [the respondent] responds well to discussing
his identified goals and is open to the concerns regarding
his ongoing controlling behavior. [The respondent] did
admit that his role in the children's removal was due to his
controlling behaviors and that he should have acted sooner
with regard to the red flags' he saw concerning (the)
mother. Dr. Gockel testified that [the respondent] 'has
made significant progress' and has acknowledged engaging
in behavior not in his best interest or (that of] others. Dr.
Gockel opined that he did not find much evidence of
coercive control or intimate partner violence on the
respondent's] part. Dr. Gockel also opined that [the
respondent's] text [message) regarding [his] using a knife
in the family home was evidence of [the respondent's]
impulsive behavior, but [that it] was not an effort to control
(the mother], 10 Further, Dr. Gockel testified that while
(the respondent] had acquired insight into the children's
removal from the home, [the respondent] reported that the
removal was due to his complaint that [the] mother put the
children in danger due to her boyfriend and that the
removal was due to the entrance into the home. Dr. Gockel
noted that [the respondent] did accept responsibility for
failing to care for the children....
"[The respondent's] initial visits with the children
were supervised and were separate from the mother's
(visits] in light of a protective order in place at that time.
Visits were scheduled on Sunday due [to the respondent's]
insistence that [that] was the only time [at which he was
available. This created a barrier, as many agencies and
workers were not available to conduct supervision of
weekend visits; however, (the department] accommodated
his request. [The respondent) takes the children on outings
during many of the visits and engages in age appropriate
play with them. However, he, at times, has arrived late, left
early or took breaks during the visits. At times, he left the
visitations for periods of time, leaving the worker to
supervise the children. He would often stand or sit and
watch the children, and was minimally engaged with them
during the visits. He was also observed giving the children
money or toys in response to behavioral issues. He often
brought excessive gifts to the visits. He often gave Safiyah
more gifts than her brothers.

150a

“[The respondent] commenced unsupervised visits
on July 11, 2018, at [his home. [The respondent) had rooms
fully prepared for the children and purchased stuffed
animals, toys and computers for each of them. [The
respondent] also showed the children a 'snack' room in the
home filled with many boxes of snacks. The children spent
much of the time during the visits on their computers. On
July 15, 2018, [the respondent] reported that he began
'segmented' visits with the children wherein he outlined a
program of thirty minute increments of activities to
promote ‘fun, happiness and love and respect and
discipline.' [The respondent] would often leave the children
unsupervised while he was upstairs in the home. During
periods of time when the social workers stopped by [the
respondent's] home during the visits, [the respondent] was
observed engaging in little interaction and conversation
with the children. During a visit on September 16, 2018, on
at least two occasions, [the respondent] was upstairs and
not present with the children for an extended period of
time. Notably, [the respondent] was observed to leave the
children unsupervised with Oais and Muhammed, who
were living in the home. This was also confirmed by the
children, who also reported that Oais and Muhammed
'roughhoused with them, and [that] they did not like it.
During a visit at the respondent's) home [on] October 7,
2018, [the respondent] left the children in the company of
Oais and Muhammed to go to [a] mall. Supervised
visitation with [the respondent was] stopped by order of the
court (Burgdorff, J.) on January 29, 2019, during the
pendency of the termination of parental rights trial, due to
the credible testimony by the social worker that [the
respondent] left the children alone with Oais in light of the
credible concerns of inappropriate sexual contact by Oais
with Safiyah, and [the respondent's] ongoing and repeated
denial of such contact.
“During the supervised visits with the children, [the
respondent] would, at times, discuss inappropriate topics
with the children, including seeing [the] mother covered in
blood, that there were ‘real memories' and 'false memories,'
and that they had been told incorrect information by the
foster parents.

151a
"[The respondent) made telephone calls to the foster
home to speak with the children. However, in early 2018,
the foster parents refused to engage in the telephone calls
with [the respondent] after receiving a threatening e-mail,
which stated that emotional abuse was a crime punishable
by law and if the foster parents thought they were immune,
they were 'dead wrong. He currently does not have a good
relationship with the foster parents and has alleged [that]
they have alienated the children from him and from their
religion, and are the cause of the children's issues. He also
alleged that they have abused the children.
“At [the respondent's] request, an additional onehalf hour was added to the visits for the purposes of
religious instruction by the respondent] for the children. In
addition, [the department] transported the children to a
mosque with (the respondent] in January, 2018, for an
hour of religious instruction at [the respondent's] request.
Of note, [the respondent] has been observed to use the
extra half-hour for religious instruction on only two or
three occasions. Prior to 2017, [the respondent] did not
engage in prayer with the children during the visits.
"[The respondent] was ordered to engage in family
therapy with the children. As noted (herein), the children's
therapists did not support [the respondent's] engaging in
family therapy at the same time as [the] mother because
[the respondent] was not 'grounded enough to make
progress in family therapy with the children. It was noted
that Safiyah was 'on the fence about engaging in therapy
with the respondent) and that Omar was resistant. At the
first session involving [the respondent], Omar expressed
that he was not happy that the respondent] was present.
Notably, the respondent] falsely stated to De Rosa that the
children were not going back to [the] mother because she
was not seeking custody. Mr. De Rosa reported that the
respondent] ‘appeared to be trying to gather information
from the therapy and that [the respondent] continued to
place blame on the foster parents and the department for
the children's current issues. [The respondent) also stated
to Mr. DeRosa that the children have been abused in their
foster home, and the respondent) insisted on their removal
from the foster home. Mr. De Rosa also noted that [the
respondent] continues to have a 'one dimensional view.'

152a
“After a provider meeting in June, 2018, [the
department], as noted [previously), recommended
reunification of the children with (the) mother. While
recognizing that the respondent] had made progress in his
services, including improved parenting skills and a clear
love and affection for the children, [the department] had
ongoing concerns about [the respondent's] continued lack
of ability to take full responsibility for his history of
controlling behaviors and his continued ongoing efforts to
try to control [the] mother. [The department] also
expressed concerns about the respondent's] decision making and the best interests of the children in light of
ongoing control issues. [The department] also expressed
concerns about the children's consistent resistance to
reunifying with the respondent).
“The record is replete with many instances of the
respondent's] repeated attempts to use coercion and control
in his dealings with (the) mother, [the department), the
foster parents, and the service providers. As noted (herein),
one concerning example is a May 5, 2017 e-mail sent by
(the respondent] to (the) mother's attorney requesting to
speak directly to her therapist to make sure that the
therapist is aware of her ‘real symptoms and what really
prompted her to injure herself to frame me with a crime,
she will never get better and she will not receive the
therapy she really needs .... I would . . . sign whatever
affidavit is (necessary] to grant [the mother) immunity
from criminal prosecution and to promise her in writing
that I will not press any charges against her .... I will drop
the civil lawsuit against her in return for her reporting
what happened truthfully to her therapist.' Another
example is an e-mail sent approximately one week prior to
the commencement of the [termination of parental rights]
trial to the social worker, along with an attached draft
'agreement' entered into with [the] mother regarding his
proposal for the custody of the children. [Although] the email states that it should not be sent to anyone else, [the
respondent) forwarded it to the social worker. The e-mail
compliments [the] mother as 'smart, mature, intelligent,
workable and flexible,' and then goes on to critically discuss
[the] mother's ‘disturbing' relationship with her boyfriend
and her ‘psychosexual issues,' which ‘may continue to
undermine her ability to care for the children or to put

153a
them at risk. [The mother's] inability to care for the
children was directly related to her secret affair with [her
boyfriend].' He then goes on to state that family position is
that the children are better off with their mother as
primary caretaker, ideally.' Further, as previously
discussed, [the respondent) attempted to exert control over
[the] mother by filing numerous motions in the family court
and in the juvenile court. The credible evidence clearly and
convincingly demonstrates (the respondent's extensive
history of attempts to coercively control [the] mother
financially and emotionally. He has made numerous false
allegations against her regarding her mental health and
drug use, and with regard to the care of the children, all of
which has adversely affected the children.
"[The respondent] did eventually admit in his
testimony at the [termination of parental rights] trial that
he has started to gain insight as to why the children were
removed and that the children were removed directly as a
result of the affidavit he filed with the family court on July
29, 2015. He also admitted that he completely blamed [the]
mother for everything and had since come to realize
through therapy that his treatment of [the] mother
triggered the intimate personal violence and coercive
control which affected [the] mother and the children in a
negative way.
“[The respondent) also testified that he never left the
children alone during their unsupervised visits with him at
his home and that Oais was never 'a single second alone
with Safiyah, which is clearly at odds with the credible
evidence presented during the trial of this matter. The
court finds that [the respondent] did leave the children
alone for periods of time both inside and outside of the
home. [The respondent] also testified that he never asked
the children to have overnight visits with him. This
testimony is also not credible, as the children reported this
information to the department) and their therapists! in
addition, it was heard by a social worker most recently at
a visit with the children in January, 2019. The court, as
discussed [previously), does not give credence to the
respondent's] testimony that he committed no physical
violence or altercations with (the) mother during their
marriage. It is abundantly clear that domestic violence

154a
occurred when [the respondent) entered the home against
[the] mother's wishes on July 29, 2015, and forced himself
through the locked bedroom door and that [the] mother
sustained injuries all within the hearing of the children.
Further, [the respondent appeared] to minimize 'a couple
of isolated incidents including pushing [the] mother away
when he was going to a meeting and [that] Safiyah may
have seen him 'pushing her,' all of which constitutes
domestic violence. The children have also reported other
domestic violence incidents in the house.
“The court is also dismayed at [the respondent's]
testimony that he believed [the] mother's concerns
regarding inappropriate sexual contact between Safiyah
and Oais, when he has repeatedly and consistently denied
that it occurred, including verbally expressing (such belief]
to this court when the court ordered [that] supervised
visitation recommence on January 29, 2019. The court
finds deeply concerning (the respondent's] failure to
acknowledge and appreciate the significance of the alleged
sexual misconduct by Oais with regard to his young
daughter, Safiyah. The court further finds that, contrary to
the respondent's] testimony, he has attempted to alienate
[the] mother from the children and has attempted to cast
her in a disparaging light by making outrageous and
disturbing false claims about her. He has repeatedly
objected to the prior permanency plans of reunification
with the mother. His actions clearly belie his words that he
respects and supports [the] mother's relationship with the
children.” (Footnotes in original; footnotes omitted.)

D
Omar
The court's findings with respect to Omar are as
follows- “Omar . .. was born on January 17, 2008. He is the
eldest] child of [the] mother and the fourth ... child of [the
respondent]. . . . Omar was referred to [the] Birth to Three
(program for) services until the age of three. He was
reportedly diagnosed with autism at the age of three and
was evaluated at the Connecticut Children's Medical
Center .... He transitioned to a special education
preschool program and requires a higher level of care,

155a
including a higher level of parenting with additional
supports from his therapists, pediatrician and support
groups.
"Omar, in addition to Safiyah and Muneer, (was]
reported by their foster mothers as infantile and
developmentally behind when they arrived at the foster
home. Of special concern to the foster parents was the
children's lack of toilet training, [their use of] diapers, and
[their] lack of basic hygiene. ... As noted [previously), the
children were ages five, four and three at the time they
were placed in their current foster home. ...
“[Omar] was seen at the Center for Allergy, Asthma
and Immunology in September, 2018 .... He is considered
medically complex due to his asthma. . . .
"He is currently enrolled in the fifth grade. In
February, 2017, it was determined that Omar no longer
needed special education services and [an education plan
that was created pursuant to § 504 of the Rehabilitation
Act of 1973; see 29 U.S.C. § 701 et seq.) was initiated. As of
February, 2018, Omar's teacher reported that he had
become more vocal and had formed a small group of friends,
with whom he was able to interact appropriately. . . . He
continues to require additional assistance with sensory
tools and strategies, and extended time on assessments
and on class assignments.
"Omar was referred for an autism reevaluation at
Western Connecticut Behavioral Health in February and
March, 2018. His history of significant trauma related to
domestic violence witnessed at home was noted. He was
diagnosed with unspecified trauma and stressor related
disorder, which was attributed to early complex childhood
trauma with an ongoing diagnosis of spectrum disorder
requiring support. . . . Omar described his visits with [the]
mother positively but was consistently negative in his
description of his visits with (the respondent] and has
repeatedly expressed that he did not want to see [the
respondent) at all. He also consistently expressed his
desire to stay with his foster family. The evaluator also
opined that Omar's current assessment was consistent
with his prior diagnosis of autism spectrum disorder

156a
requiring support, although his symptoms have improved
substantially: 'Omar's trauma exposure and his lack of
interventions early on in his life likely increased the
intensity of his symptoms for 127 some time, although with
increased stability in his life, he has done well and
continued to improve in terms of his language, social and
behavioral functioning .... [He] is doing better now that he
is in a safe and structured environment where he is
learning necessary skills . . . [and] it is likely that Omar
will continue to make gains in adaptive functioning if he
remains in a safe, structured and stable environment. . . .
Omar must be in a home that will be free of his witnessing
and/or experiencing any physical, sexual, emotional, or
verbal abuse.'
"Omar started therapy at the Child & Family
Agency in early 2016. He was diagnosed with posttraumatic stress disorder .... He participated in play
therapy to lower his level of avoidance by means of gradual
exposure. He initially presented as guarded in therapy and
transitioned to therapy with Muneer. He was successfully
discharged in the fall of 2017. He reengaged in individual
therapy there in March, 2018, pursuant to (Judge Lobo's
order. He is addressing his fears and misunderstandings
surrounding [the respondent) and Islam.
"Omar also participated in family therapy sessions.
His therapist, De Rosa, noted that Omar's diagnoses in
2017 include autism, persistent depressive disorder, and
other reactions to severe stress, and that these were due to
his high level of anxiety. ... Omar reported during therapy
to observing domestic violence in the home, and he
continued to have challenges in discussing the dysfunction
in the family home. [DeRosa] also reported that Omar, as
well as Muneer, were not experiencing psychological
suffering due to being in foster care. DeRosa also noted that
Omar had made progress in the therapy and that extended
therapy would not be beneficial. As discussed [previously),
the children's therapists did not support [the respondent's]
engaging in therapy at the same time with (the) mother, as
they did not believe that the respondent] was 'grounded
enough to make progress in family therapy.'... Eventually,
the respondent] engaged in the family therapy. Notably,
both Safiyah and Omar were resistant to [the respondent's]

157a
engaging in the family therapy. Omar was able to express
that he was not happy that [the respondent] was present
at family therapy [visits), but [he] eventually adjusted to
the respondent's] presence. However, Omar was observed
to continue to experience anxiety when the respondent]
was in the room. Omar continues with individual therapy,
which is going well. ... Of note, Omar's therapist reported
that Omar is 'highly ambivalent' about reunification with
his parents.
"Omar engaged in a child abuse consultation at the
Greater Hartford Children's Advocacy Center at Saint
Francis Hospital and Medical Center on October 8, 2015,
for an evaluation due to concerns of witnessing domestic
violence between [his mother and the respondent). [Omar]
disclosed that [his] mother sustained cuts to the front of
her body after tripping over a cell phone and falling onto
broken glass. He further stated that the glass broke
because [the respondent) had a bat and hit the glass,
causing it to shatter on the floor, and that [the respondent]
‘did this on accident.' He noted that if [the respondent) did
not have the bat, ‘I would not even be here. He also
reported witnessing other incidents of [the respondent]
yelling at [the] mother. . . . Omar also reported that he had
seen [the respondent] hit [the] mother and then [lie] about
it. He also reported that the respondent] would not let [the]
mother eat.
"Omar completed a psychosexual evaluation and
risk assessment with Eliza Borecka at the Sterling Center
on June 22, 2018, due to allegations made by [the] mother
that there could have been a sexual abuse history of all
three children by older [half siblings) or a premature
exposure to adult sexuality by (the respondent). Omar
reported that he wanted to stay with his foster parents ...
because '[my parents] can't teach me anything good. All I
need to learn is with my foster mother). I didn't even know
how to use the toilet when I lived with my mom and dad. .
. . They didn't teach us anything. We were wearing diapers
when we came to live with [our foster mothers). I would
wear a pull-up to school. Mom was somewhere. Mostly, our
nanny was at home. Dad was at work.' Omar also stated
that he did not want to move back home because they will
just do the same to us. They will just teach us wrong. They

158a
would treat us like babies, and (we) will end up behaving
like babies. Because they don't know how to grow a baby
into someone with no sick mind. They will raise us into a
person with a sick mind. ... We would just become adults
with special needs.' Omar described his father as a 'dork
and cruel and that [his] mother 'eventually will not teach
us wrong from right....! The evaluator opined that Omar's
responses did not indicate clinically significant symptoms
of trauma, nor did he exhibit any behaviors indicating
potential sexual exposure. ...
"Omar continues to receive support and case
management through The Connection and his therapeutic
foster home where he has been placed . . . along with his
siblings, Safiyah and Muneer.
“Omar, as well as Safiyah and Muneer, underwent a
psychological evaluation with Dr. Eric Frazer, Psy.D., a
clinical and forensic child psychologist, on September 19,
2018. Dr. Frazer credibly opined that all three children
presented with significant psychological issues. He
reported that Omar had a long-standing preference for
staying with his foster parents. Omar stated that he ‘loved
them and want[ed] to stay with them. . . . I've improved a
lot as a child since they took care of me.' He also stated that
any future communication with [his] mother and the
respondent) should be decided by his foster parents and
that, if that occurred, 'he would like them to be spaced out
every three months. Significantly, when asked what it
would be like if he lived with [his) mother, Omar stated, 'I
would be really sad. I wouldn't progress anymore and still
have visits with my dad. I don't want overnight visits to
happen ... [because] I won't be with (my foster parents). I
wouldn't be safe and wouldn't feel too safe.' When asked
what it would be like to live with (the respondent], Omar
stated, 'basically, the same thing with my mom, and I
would also have to be Muslim and I want to be Christian.
He would spoil us, like the bad type of spoil; we would just
ask for everything and get it, like, not earning anything.'
He further stated that he did not want any more visits with
his parents. 'No more visits with either parents.' Dr. Frazer
noted that Omar did discuss experiences [that] he enjoyed
with [his] mother and [the respondent), but those positive
experiences did not translate into the desire to sustain a

159a
parent-child relationship with either parent in the context
of living with them.' He further opined as to all three
children that, '[w]hat is developmentally consistent in the
children's responses is their desire to have predictability,
consistency, and permanency in a home with foster parents
they perceived as being safe and [reliable] caregivers. This
is what all children seek and thrive on, so their preferences
do not show abnormal thinking. Given the amount of time
(they have spent] in their foster home, it is understandable
that they have developed trust and a strong parent-child
relationship with their foster parents and wish to maintain
it.' Dr. Frazer also credibly testified that the children were
doing better qualitatively in their developmental needs,
including education and learning needs, their socialization
needs, and their emotional needs. . ..
“With regard to the) mother's and [the respondent's]
need for co-parenting, Dr. Frazer credibly opined that the
referral to a parenting coordinator was due to 'a significant
presence of conflict. . . . Parents who are able to co parent
successfully in a productive manner don't have the need for
co-parenting therapy and definitely not a parenting
coordinator . ..[That] tells me that there was a significant
level of conflict, a significant amount of co-parenting
difficulties . . . and that ... has introduced conflict to the
children, which makes it more difficult for each of the
parties to parent the children. And, then, in consideration
of the special needs of the children, it adds another
additional stress.'. ..
“Dr. Frazer also credibly opined that the concern to
him in the case 'is, really, instability by innumerable risk
factors, risk factors that were identified with education,
social development with emotional development, coparenting conflict, things like that.' Most persuasive to the
court was Dr. Frazer's opinion that if the children were
returned to their home where the behavior of the
caregivers was not predictable and consistent, 'their overall
history show[s] that they're at significant risk of regression
.... They could start lagging academically. They could have
difficulty with peer relationships. They could start showing
resumption of symptoms associated with anxiety that they
... had been treated for.'. ..

160a
“Dr. Frazer also compellingly testified that, with
regard to the three children's clear preference to remain
with their foster parents, ' it's more about what they have
come to experience as young children in terms of
consistency, predictability, expectations, routines, and
connection to their caregivers ... They've improved
academically and socially and emotionally, as well ....
Those are really the significant factors that I see
influencing the articulation of their preferences. . . . [T]he
way the children conveyed it to me was the way they
described their routines at the foster home. They knew
what to expect, what was happening after school. They
were able to talk about their day. They had activities that
they described that were happening on the weekends. So,
it was really about their communication, about their
routines and their sense of expectation and familiarity with
that which was the way they described their perception
versus when they were living with ... their parents (at
which time they] didn't have those things.'
“As noted [previously], Omar also participated in a
court-ordered psychological evaluation with Dr. Humphrey
in October, 2015, and an additional court-ordered
evaluation in late 2018. Dr. Humphrey opined that Omar,
along with Safiyah and Muneer, had been living in a
conflict-laden home environment that has included
allegations of intimate partner violence, educational
neglect, and counterclaims of parental inadequacy and
neglect.' In his 2018 interview with Omar, Dr. Humphrey
noted that Omar had thrived at school and in his
socializations. He also noted that his posture toward (the
respondent) had changed dramatically since his removal in
2015. He expressed that he no longer wanted to go to visits
and did not want to go to the mosque, nor did he want to
continue to engage in therapy. He also expressed that shis]
mother and the respondent] did not 'teach him and his
siblings well . . . .' Dr. Humphrey credibly opined that
'Omar presents as [a] child who received inadequate care
with his parents that contributed to social, academic, and
developmental delays, and contributed to problems with
behaviors, including enuresis and problems with
interpersonal communication. He has shown improvement
t
in all these areas since entering foster care

161a
“As noted [previously], Omar was placed with his
siblings, Safiyah and Muneer, in a therapeutic foster home
through The Connection in July, 2015. The foster home
consists of two foster mothers and their adopted daughter.
There have been no concerns with the foster home. Muneer
and Omar share a bedroom in the home. Omar has been
thriving in his foster home where he is well cared for and
has been given much needed structure and parenting.
Omar continues to receive weekly support and case
management from The Connection. Omar has significantly
progressed emotionally, physically and educationally since
being placed in the foster home. Omar has a strong bond
with his foster family, in addition to his brother and sister,
and clearly wishes to remain in their care. . . .
“[The respondent's] visits (with Omar] were initially
supervised by the department] and then became
unsupervised in July, 2018. As discussed [previously],
[Judge Burgdorff ordered that supervised] visits with (the
respondent] be reinstated due to credible reports that (the
respondent] does not consistently supervise the (children
during] visits ... when they are in Muhammed's and Oais'
presence in [the respondent's] home. [The respondent's]
visits take place primarily at his home on Sundays due to
his work schedule. Omar has expressed, for a significant
amount of time, that he does not wish to reunify with either
[the] mother or [the respondent] but appears, at times, to
enjoy his visits with [the] mother and [the respondent], as
well as his older [half siblings], Muhammed and Oais. At
times, he has been distant and guarded with (the
respondent] but also, at times, has some positive
interactions with him. Omar has consistently expressed his
opposition to overnight visits with (the) mother or (the
respondent], stating that he is ‘not comfortable.' At times,
he has been resistant in attending visits with (the
respondent] but had no issues when attending the visits.
He has, at times, refused to speak with (the respondent] on
the telephone at the foster home. Notably, after a visit with
(the respondent) on July 8, 2018, Omar wet his bed on July
9, [2018], and July 14, 2018, for the first time in
approximately four months. Notably, these [incidents]
occurred after discussions regarding overnight visits with
(the respondent].

162a
"Omar has been consistently adamant in his desire
to stay in with his foster family, even going so far as to
trying to bribe the social worker in an attempt to ensure
[that] he stays there. Omar continues to address these
issues in therapy. Recently, he appears to have tired of the
visits with his parents and with his service providers.
Omar is well bonded with his foster parents, in whose home
he has resided with Safiyah and Muneer for almost four
years, along with his foster parents' adopted daughter. He
has a strong, stable and loving bond with his foster family.
He has consistently expressed his wish not to reunify with
either [the] mother or the respondent], and has expressed
that he would like to be adopted by his foster parents and
that he wants to 'stay with them forever.' Omar's foster
parents have expressed their willingness to adopt (the
children)... if they become legally available to do
SO."
E
Safiyah
With respect to Safiyah, the court found the following facts:
“Safiyah . .. was born to [the] mother and [the respondent)
on February 8, 2009. She is [the respondent's fifth]... child
and [the] mother's second ... child. [The] [m]other reported
that Safiyah met developmental milestones but [that she]
was somewhat delayed. She was evaluated by [the] Birth
to Three (program for services) but was deemed not
eligible. She is in good overall physical health and is fairly
active. Her pediatrician noted no ongoing developmental
concerns. ... She has been diagnosed with asthma and is
treated at the Center for [Allergy] Asthma and
Immunology.
“Safiyah is currently enrolled in the fourth grade
and is identified as a regular education student. Due to
concerns by [the department] that she required special
education services, her school implemented a leveled
literary instruction group as an intervention. Safiyah has
improved academically and she is currently on grade level
with her reading. She is approaching and meeting
expectation[s] in several classes. She has several classes
where she is not meeting expectations. Safiyah has had

163a
several meetings with the school worker due to some
behavioral issues.
"Upon entering [the department's] care, Safiyah was
placed in a therapeutic foster home through The
Connection. She continues to receive weekly support and
case management from The Connection. At the time she
entered care, Safiyah presented with sexualized behaviors,
bed-wetting,
was
emotionally
dysregulated,
and
hyperactive. ...
"Safiyah's therapist credibly testified that Safiyah's
exposure to domestic violence in the home played a
significant factor in her (post-traumatic stress disorder]
diagnosis and that she has made significant progress since
being placed in her foster home. She has matured,
improved her self-esteem and personal advocacy [skills], as
well as her overall coping skills. She has developed
appropriate boundaries with her brothers and become
more vocal in expressing her concerns to adults. Her
incontinence issues have resolved, as well. She commenced
therapy in early 2016 and was successfully discharged in
March, 2018. She continues to work on addressing her
fears and misunderstandings with regard to the
respondent) and Islam.
“Safiyah is currently engaging in family therapy
sessions with each parent. Her therapist, (Baker), noted
that Safiyah adapted and transitioned into therapy, which
included the trauma treatment model, and made progress.
She improved in her self-regulation and self-esteem, and
worked through her past trauma. She did not disclose any
new trauma while in foster care. Overall, Safiyah has
improved her behaviors and has demonstrated the ability
to advocate for herself and maintain healthy boundaries
with her siblings and her peers. She was discharged from
therapy successfully.
“Safiyah engaged in a child abuse consultation at the
Greater Hartford Children's Advocacy Center at Saint
Francis Hospital and Medical Center on October 8, 2015,
for an evaluation for sexual abuse due to concerns of
witnessing domestic violence between [her] mother and
[the respondent) as well as allegations of inappropriate

164a
contact by an older [half brother], and possible exposure to
pornography. During the forensic interview, Safiyah
reported observing multiple incidents of domestic violence
between [her] mother and [the respondent], including the
respondent) throwing a glass at [her] mother, that [her]
mother was bleeding, and that the respondent] was mad at
[her] mother and pushed her. She also reported other past
incidents [in which the respondent] pushed [her] mother.
She reported that [her] mother doesn't ever do anything
bad to my dad. It's only my dad.' She reported an incident
while in the family car when [the respondent] told [her]
mother he was going to explode' her. She also reported
witnessing [her] mother being pushed and hit by (the
respondent]. She also reported that Muneer and Omar
touched her ‘private space . .. with their hands under their
clothing... lots of times.' She also stated that Muneer made
her touch his ‘private spot.' Therapy and a medical
evaluation was recommended.
"Safiyah was referred for a psychosexual evaluation
in July, 2017. She reported a history of domestic violence
between [her] mother and the respondent]. Safiyah was
reported to have a number of behavioral issues when she
came into the department's] care, including inappropriate
boundaries and touching with her siblings, and being
inappropriately touched by an older [half sibling). There
were concerns [that] she was exposed to inappropriate
sexual content prior to her removal. She also struggled
with daily routines. Concerns were raised regarding (the
respondent's] affectionate behavior with her, as well as
Omar and Muneer, especially in light of the [respondent's]
awareness of the children's sexual behaviors.
“Safiyah underwent a psychosexual evaluation and
risk assessment at the Sterling Center on June 22, 2018.
Safiyah reported that she was living in [a] foster home 'to
be safe' and because 'we were not treated well.' She
reported that [her] mother and [the respondent] 'did not
teach us anything.' She reported Muneer touching her on
her private body parts, but the evaluator noted that (such
contact did not exceed 'normative physical exploration
between the siblings.' She also reported that [her mother
had all three children take showers together and that the
cats were allowed to urinate on the children's beds. The

165a
evaluator opined that “the evident hygiene issues and
inadequate boundaries perhaps illustrate deficient
understanding of responsible parenting by the adult who
was providing direct care to Safiyah and her siblings at
home.' She further opined that Safiyah's responses to
questions did not indicate clinically significant symptoms
of trauma but that she needed further mental health
support focusing on her anger, boundaries and coping
skills. She further noted that “[i]t is likely that she is
suppressing her true feelings in order to please the people
around her.'
"As noted [previously], Safiyah underwent an
evaluation with [Dr. Frazer] on September 19, 2018.
Safiyah reported that she felt closest to her foster family,
and Omar and Muneer. She stated [that] she wanted to
continue living with her foster parents and that she liked
it there: 'Because it's fun there. We go places a lot .... It
makes more sense .... Like, let's say we got in trouble and
asked for our tablets, [her foster mother would say no. At
home with mom or dad, [they] would say, yeah, sure.'
Safiyah expressed ambivalence and uncertainty in
continuing communication with [her] mother and [the
respondent], and indicated [that] she would like to do it by
telephone. She also stated [that] she would like to continue
seeing them at their homes but with no overnight visits.
Notably, she expressed [that] she did not want to live with
either [her] mother or (the respondent]. ...
"Safiyah initially had supervised visits with [her]
mother and the respondent]. She was initially resistant to
the visits with [her] mother and [the respondent]. ... [The
respondent's] visits were initially supervised by [the
department] and then became unsupervised. As discussed
[previously], [Judge Burgdorff] . . . ordered [that the
respondent's] visits be supervised in (light] of reports that
the respondent] does not consistently supervise the visits
between Omar, Safiyah and Muneer when [the children
are) in Muhammed's and Oais' presence. [The
respondent's] visits take place primarily at his home on
Sundays due to his work schedule. ... Safiyah appears to
enjoy her visits with [her] mother and the respondent], as
well as her older (half siblings] .... She appears to have
developed a positive bond and has not reported any

166a
concerns. However, Safiyah has consistently stated that
she does not wish to have overnight visits with either [her]
mother or the respondent], and that she does not want to
reside with either [her] mother or (the respondent]. She
also stated that she does not like to go to the mosque and
that she does not understand why she has to go when she
had not gone before.
“As noted, Safiyah was placed, along with her
siblings, Omar and Muneer, with her foster parents and
their adopted daughter after entering [the department's]
care in 2015. She is well bonded with her foster family, in
addition to Omar and Muneer, and is emotionally attached
to them.”
F
Muneer
With respect to Muneer, the court found the
following facts: “Muneer . . . was born to [the] mother and
[the respondent) on March 4, 2010. He is [the respondent's]
sixth . . . child and [the] mother's third . . . child. [The]
[m]other reported that Muneer met all developmental
milestones. However, his pediatrician reported that he had
a history of delayed milestones but (that he] has no current
concerns. He is in overall good health. ... He is deemed
medically complex due to his diagnosis of asthma, for which
he is seen at the Center for Allergy, Asthma and
Immunology. ...
“At the time Muneer entered [the department's] care
in 2015, he was placed in a therapeutic foster home
through The Connection. He continues to receive weekly
support and case management from The Connection. At
the time of his removal, Muneer was experiencing issues
with bed-wetting and hygiene.... Since being placed in his
foster home on July 31, 2015, those issues have resolved.
“Muneer is currently enrolled in the third grade,
where he is identified as a regular education student with
no educational or developmental concerns noted.
...“Muneer is currently reported to be an overall happy
child and is fairly well-behaved. Muneer was initially
engaged in individual therapy at the Child and Family

167a
Agency in 2016, and consistently attended until fall, 2017,
when he was successfully discharged. He then reengaged
in therapy in March, 2018. He is also engaged in a schoolbased program to avoid missing time at school. Muneer's
therapy focuses on his fears and misunderstandings
surrounding [the respondent] and Islam. Muneer appears
to enjoy talking about his feelings. He occasionally displays
oppositional behaviors, including talking back to his foster
parents. Muneer has also been engaging in family therapy
with [his] mother and [the respondent], and his siblings.
Muneer has made improvements in that he is better able
to articulate his feelings and implement the coping skills
[that] he has learned in therapy
“ Muneer underwent a forensic interview at Saint
Francis Hospital and Medical Center's Children's Advocacy
Center on October 8, 2015. Muneer did not engage and did
not want to discuss the domestic violence incident at the
family home on July 29, 2015. No assessment was made
due to his refusal to engage.
"Muneer underwent a psychosexual evaluation and
risk assessment at the Sterling Center on June 22, 2018.
Muneer had been diagnosed with dysthymic disorder and
other reactions to severe stress. He also reported a history
of domestic violence between [his] mother and the
respondent]. At the time he was placed in [the
department's] care, Muneer had a number of behavioral
issues, including inappropriate touching and boundaries
with his siblings. He reported a history of nightmares and
intrusive thoughts. ... The foster parents received a call
from Muneer's school reporting that Muneer was humping
another boy and [had] locked himself and the little boy in
a bathroom stall. His foster parents described him as
[engaging in) sexual/fantasizing behaviors. Muneer
reported that he had touched Safiyah in her private area
but did not do it anymore. Muneer reported seeing [his]
mother and [the respondent) without clothes on the
television at his parents' home. He reported that Omar and
Safiyah saw it, as well. The foster parents reported that, as
of the time of the evaluation, he had not engaged in that
type of behavior for approximately a year and a half. He
also had issues with being controlling and demanding, and
[he] engaged in long temper tantrums in the foster home

168a
and in public. Those behaviors were reported to have
improved since [he was] placed in his foster home. The
evaluator opined that Muneer's responses indicate
clinically significant symptoms of trauma with elevated
responses in the areas of anxiety, depression,
posttraumatic stress, sexual concerns and sexual
preoccupation. He exhibited significant distress when
discussing the topic of sexuality and physical boundaries. .
.. It was noted that... Muneer's exposure to sexual content
in the years prior to his removal continued to generate a
very strong response in Muneer. As the evaluator noted,
Muneer's exposure to the sexual content would likely cause
him to react to it through unusual behavior, and his
reactivity will be displayed as sexualized behavior, as
demonstrated in his sexualized behavior with Safiyah and
the child at his school. His evaluator opined that Muneer
presented as a child who exhibits significant symptoms of
significant stress and emotional burden due to his life
circumstances, ‘[and] he reports symptoms of anxiety,
depression and confusion about where his life is going and
he desperately needs stability and resolution to the turmoil
he has been experiencing in the past three years.'....
“Muneer underwent an evaluation with [Dr. Frazer)
on September 19, 2018. Muneer expressed feeling closest
to shisl mother but that he did not want to stay overnight
at either [his] mother's or [the respondent's] homes.
Muneer expressed that he wanted to continue living with
his foster parents ‘because they taught me everything I
need to know ... they taught me right from wrong. I don't
think my biological parents are ready for kids yet . . . they
don't teach me things I need to know. They taught me
things that are not right. I love them but if they are going
to treat me that way, I just don't want to stay with them.'
He further stated that, ‘[o]ne day, my dad threw a glass at
my mom, and I had to go stay with someone else.' Muneer
also noted that he would miss [his) mother and the
respondent] if he stayed with the foster parents because he
loved them. He was uncertain and ambivalent regarding
ongoing communication with [his] mother but did not
wantalso noted that he might consider seeing his parents
once a month, as well as (on) special days. ...

169a
“Muneer initially had supervised visits with [his]
mother and the respondent]. . . . [The respondent's] visits
were initially supervised by [the department, and then
became unsupervised. Most recently, (Judge Burgdorff]
ordered [that the respondent's] visits be supervised in
[light] of reports that [the respondent] does not consistently
supervise the visits between Omar, Safiyah and Muneer
when in Muhammed's and Oais' presence. ... Notably,
Muneer has consistently expressed his opposition to
overnight visits with [his mother or (the respondent],
stating that he is ‘not comfortable.' He has expressed that
his visits with the respondent] 'are not so good' and that he
does not like attending the mosque.
"Muneer is well bonded with his foster parents in
whose home he has resided with Safiyah and Omar for
almost four years, along with his foster parents' adopted
daughter. He has a strong, stable and loving bond with his
foster family. He initially expressed that he wanted to live
with shis mother and expressed fear of [the respondent]
due to his exposure to domestic violence between his
parents. However, most recently, he has consistently
expressed his wish not to reunify with either [his] mother
or (the respondent] and would like to be adopted by his
foster parents.'

G
Religion
The court made additional findings concerning the subject
of the children's religion, as follows: “As [discussed
previously, the respondent]... is a practicing Muslim. [The]
[m]other was also a practicing Muslim when the children
were in her care. She has since expressed the desire to have
the children [introduced] ... to other religions and supports
their celebration of other holidays, such as Christmas.
[The] [m]other has celebrated these holidays with the
children. [The respondent] has consistently not been in
agreement. The court finds no credible evidence supporting
[the respondent's] claim that the foster parents have
attempted to alienate the children from (their) Muslim
father. The foster parents are practicing Christians who
have not forced the children to engage in religious
practices. However, notably, the children reported [that]

170a
they did not attend a mosque before their removal. They
have also expressed some anxiety regarding their current
religious identities. As noted [previously],
[the
respondent's] visitation time with the children was
increased by thirty minutes for the purpose of religious
education, but he has made little effort to engage with the
children to discuss religion. He has given the children gifts
on Muslim holidays but does not engage in prayer with the
children before eating during the visits.”
H
Adjudicative
Findings In the adjudicative phase of the
proceeding, the court, relying on its prior detailed findings
concerning the services that were provided to the mother
and the respondent to facilitate reunification, determined
that the children had proven by clear and convincing
evidence that the department made reasonable efforts to
reunify the mother and the respondent with the children.
The court found that, on December 18, 2017, the children
were found to have been neglected.
The court then found by clear and convincing
evidence that the mother and the respondent had failed to
rehabilitate. The court stated^ “[T]he evidence ... clearly
and convincingly demonstrates that [the] mother and [the
respondent] have failed to rehabilitate to the extent that
the children can be returned to their care or custody. They
clearly have not rehabilitated in a timely manner. They
clearly cannot adequately meet the
children's
developmental, emotional and medical needs at the present
time, nor in the foreseeable future. Neither parent has
gained the necessary insight and ability to care for their
children, given their ages and needs, including their special
needs, within a reasonable period of time. . . . They have
not sufficiently and successfully engaged in rehabilitation
in a timely manner nor have they made adequate progress
to the extent that it is safe for the children to return to their
care, given their ages and need for permanency. Further,
giving them additional time to [rehabilitate] is neither in
the children's best interests nor in their need for
permanency in light of their clear failure to do so over the
past four years.

171a

“The evidence clearly and convincingly reveals that
[the] mother and [the respondent] continue to have a
significant lack of parenting skills, including co-parenting
skills. Prior to the children's removal from the home, both
parents relied on a series of nannies and babysitters to care
for the children. [The] [m]other was often out of the home
or sleeping late. [The respondent] was working. They both
failed to teach the children basic tasks, such as toilet
training and personal hygiene. The court finds it both
disturbing and remarkable that these children were not
toilet trained and were using diapers at the time [that] they
were placed in their current foster home. They both failed
to ensure that the children attended school and arrived [at]
school on time. Neither were involved in the children's dayto-day lives, and both failed to meet some of their basic
needs. [The respondent] denied responsibility for their dayto-day needs and consistently blamed [the] mother.
"Further, these parents engaged in intimate
personal violence in the home and in the family car, in the
presence of the children, on at least several occasions. The
clear and convincing evidence shows a clear pattern of
intimate personal violence, including coercive control, by
[the respondent) toward [the] mother during their
marriage and since the children's removal. He has
repeatedly attempted to control [the] mother emotionally
and financially. He has continuously made many false
aspersions regarding [the] mother to the department) and
the providers. [The respondent's] failure to sufficiently
rehabilitate is clearly exemplified by [his] conduct and
words over the four years since the children's removal. [The
respondent]has consistently maintained that he has not
done anything wrong and [has] failed to fully accept
responsibility for the role he played in the removal of his
children. He clearly misrepresented, if not outright lied,
regarding the circumstances surrounding the children's
removal, and blamed [the] mother for filing what he
characterized as false charges against him with regard to
the July 29, 2015 domestic violence incident in the home.
He also clearly failed to sufficiently gain the necessary
insight into his coercive and controlling nature in his
relationship with [the] mother and how this impacted the
care of his children both before and after their removal.

172a

[Although the respondent) eventually admitted that
he had committed some controlling behaviors toward [the]
mother, that realization was much too little and much too
late. His actions and words belie that belief, as his coercive
control continued up to the commencement of the ... trial.
Further, it is abundantly clear that [the respondent] has
always put his interests first and the children's second. His
actions have clearly been damaging to the children and to
their relationship with (the) mother. It is abundantly clear
that the [respondent] has utterly failed to gain sufficient
insight into his ongoing need to exert control.“[Although
the respondent] has consistently reported a positive
relationship with (the) mother and the importance of her
role as the mother of the three children, his actions and
words also clearly belie those statements. He has
vehemently opposed
[the department's] plans of reunification with (the)
mother and continually presented evidence that the
mother was unfit to parent the children, made numerous
false allegations against her and has made extensive
efforts to prevent [the] mother from reunifying with the
children. As discussed [previously], [the respondent), in his
affidavit filed with the family court, made many
outrageous and false statements vilifying [the] mother and
her care of the children. 140. Further, [the respondent's]
actions and statements have detrimentally impacted the
children. There is clearly an overwhelming need to control
on the part of the [respondent], and he has not been able to
sufficiently overcome that need through his services. He
has clearly been unable to gain the necessary insight into
his ongoing issues in a timely manner to make it even
remotely possible to return the children to his care in a
reasonable period of time." [The department) offered timely
and reasonable services to [the respondent]. Any delay in
receiving those services is directly attributable to [the
respondent]. As discussed [previously], [the respondent]
was not in agreement with several of the recommended
treatment providers and retained his own. Further ... the
record is replete with numerous instances of [the
respondent's] coercive control in all aspects of this case,
from the department], [the] mother, the service providers
and, most importantly, the children. [The respondent)

173a
attempted to manipulate and control some, if not all, of the
providers, especially Dr. Lothstein and Attorney
Moskowitz, by giving incorrect and misleading
information. It was that coercive and controlling influence
with Attorney Moskowitz that led to [the] failure of the co­
parenting services and required another co-parenting
provider, which commenced only recently.
"[The respondent) consistently presented himself in
the best possible light and often blamed [the] mother, in
addition to (the department] and the foster parents. He has
made disparaging remarks about the foster parents on at
least several occasions and has blamed them for their
ongoing issues. He also testified that he had a 'very friendly
and benign relationship' with the foster parents. The
credible evidence clearly demonstrates that this
characterization is not true. The respondent's] actions and
words have clearly demonstrated his inability to put his
children's needs ahead of his own. Further, the court is
concerned regarding (the respondent's] testimony that he
would continue to assist (the) mother financially and allow
the children (to have) access to her if the court terminated
her parental rights, which is clearly indicative of his
ongoing desire to control [the] mother.
“[Although the respondent] did eventually make
some limited progress in his therapy [by] admitting to his
control issues ... these limited admissions are woefully
insufficient to support a finding of a sufficient degree of
rehabilitation. He certainly did not come to those
realizations within a reasonable period of time.
“As also discussed [previously], [the department]
also facilitated supervised and unsupervised visits with
(the respondent]. It accommodated [the respondent's]
insistence that the visits be held on Sundays to
accommodate his work schedule. As discussed, [the
respondent] failed to ensure that the children were not left
unsupervised after the unsupervised visits commenced,
and [he] allowed his older sons to be alone with the
children. [The respondent] was well aware of the concerns
of inappropriate sexual contact with Safiyah but failed to
consider her safety and well-being during the visits. This
not only clearly demonstrates [the respondent's] lack of

174a
insight but also a clear lack of judgment. Rather than
putting the safety of his children as a priority, he continued
to deny [that] any inappropriate sexual contact occurred
through the trial of this matter. He has also failed to
engage on a consistent basis with the children during the
visits, thus failing to provide the routine and structure they
clearly need.
"In light of the above, the court finds that the
respondent) failed to sufficiently rehabilitate in that he has
failed to attain a level of stability to permit his children to
be safely placed in his care. He has made limited progress
with his ongoing significant control issues, which has been
an impediment to his gaining any lasting benefit from his
services. He has failed to gain the necessary insight into
his ongoing issues, which prevents him from successfully
reuniting with his children. . . . [Although the respondent]
did eventually comply with his court-ordered specific steps,
that is not enough to show rehabilitation.... Further, in
determining whether a parent has achieved sufficient
personal rehabilitation, the court may consider whether
the parent has corrected the factors that led to the initial
complaint, regardless of whether those factors were
included in the specific expectations ordered by the court
or imposed by the department]."
The court concluded that the mother had not
rehabilitated. The court then stated^ “The court notes that
[the] mother and [the respondent] appear to love their
children, and the children, at times over the past four
years, have indicated their love and affection for (their)
mother and the respondent], but that is simply not enough
to support reunification....
“Of paramount consideration to the court is the issue
of stability for [the children]. . .. Our laws recognize that a
child is legally entitled to some minimal standard of safety,
which should include a parent's desire to protect and keep
their children safe in all ways, including physically and
emotionally. [The] [m]other and (the respondent) have
failed in their ability to sufficiently demonstrate their
ability to parent and meet these critical needs of their three
children. [The children's need for permanence far
outweighs any remote chance that [the] mother or (the

175a
respondent] may rehabilitate in the far distant future,
which they clearly have not done since the children's
removal. Either due to lack of ability or desire, [the] mother
and [the respondent] have failed to successfully accomplish
in the past four years what was needed to consider
reunification as an appropriate conclusion. They cannot
provide their children with a nurturing, safe and
structured environment. They have clearly repeatedly
failed to put the needs of their children ahead of their own,
both prior to and subsequent to [the children's] removal
from the home. They have each failed to sufficiently
understand the detrimental impact of their actions, or lack
thereof, on the children. These children cannot afford to
wait for their parents to rehabilitate. The children ... have
presented compelling evidence that they need permanency
and stability now.
“Accordingly, the court finds that, based upon the
credible testimony and documentary evidence presented,
the children) ... have met their burden of proof by the
rigorous standard of clear and convincing evidence, that
[the] mother and [the respondent] have failed to achieve
the degree of rehabilitation that would reasonably
encourage the belief that, within a reasonable period of
time, considering the ages and needs of these three
children, either (the) mother or (the respondent] could
assume a responsible position in the children's lives. They
have each clearly failed to sufficiently address their
ongoing issues and parental deficiencies that gave rise to
(the department's] involvement. Further, the court also
finds by clear and convincing evidence that to allow (the)
mother or (the respondent] additional time to rehabilitate
would adversely affect the children's emotional stability
and well-being, especially in light of the children's ongoing
special needs and their desperate need for permanency,
four years after their removal. Either through lack of
ability or lack of desire, neither parent has made sufficient
progress toward addressing the child protection issues or
their rehabilitative status as it relates to the children's
ongoing needs. [The] [m]other's and [the respondent's]
ongoing limitations and deficits have clearly proven to be
an insurmountable barrier to reunification.” (Citations
omitted.)

176a
II
DISPOSITIONAL FINDINGS
In the dispositional phase of the proceeding, the
court made findings concerning each of the criteria set
forth in § 17a-112 (k). Thereafter, the court made findings
concerning the best interests of the children, in relevant
part, as follows: "It is clear that [the children] cannot be
returned to their mother or [to the respondent]. The court
has balanced each child's intrinsic need for stability,
sustained
growth,
development,
well-being
and
permanency against the potential benefits of maintaining
a connection with their biological parents. ... In
consideration of all these factors and after weighing all of
the evidence, the court finds that the clear and convincing
evidence has established that it is in the best interests of
the children to terminate the parental rights of the ...
mother and the respondent... to 22 ensure that they each
have a secure and safe placement so [that] they can
continue to grow, thrive and mature become productive
children and adults. They need the permanency and
stability that their foster parents will continue to provide
for [them], as they have successfully done over the past four
years. As our courts have long observed, the deleterious
effects of prolonged temporary care is well known. ...
"[The children] need this closure of the uncertainty
in their to lives and the removal of the possibility of
returning home to their mother or (the respondent], the
thought of which has caused them undue stress, anxiety
and emotional discomfort. As noted by Dr. Frazer, the
children have a fear of removal from their foster parents,
which causes them anxiety, and to remove them from their
foster parents after four years would be traumatic. Neither
[the] mother nor [the respondent] offer any reasonable
prospect of providing any form of the stability, safety and
permanency that these three children need in the
foreseeable future. The evidence, as discussed in detail. . .
clearly and convincingly establishes that neither (the)
mother nor (the respondent) is a stable and competent
caretaker for [the children]. ... The court is aware of the
affection that the children have, at times, felt for their
parents. However, the court, based on the evidence
presented, does not find a strong bond between any of the

177a
children with either [the] mother or (the respondent). This,
in conjunction with each parent's inability to substantially
and sufficiently benefit from their treatment and services,
clearly indicates that reunification cannot occur in the near
future. . . . Any further delay would be clearly detrimental
to the children. The clear and convincing evidence has
demonstrated that their strongest and most compelling
bond is with their foster parents. It is abundantly clear to
the court that these three children have thrived in their
foster home .... They receive the attention, care and love
that they were clearly lacking in the care of [the] mother or
(the respondent]. Since placement in the foster home, the
children significantly improved physically, educationally
and emotionally. They are much more emotionally stable,
better at communication and their basic hygiene has
improved. The inappropriate sexual touching between
them has stopped. The bed-wetting has greatly diminished.
The foster parents are providing excellent parenting to
these three children and they have flourished in that care.
These three children have a strong and loving bond with
their foster family. They consider their foster parents their
parents. They look to them for care, love and support. They
love their foster sister. They love each other. . . . The
children's need for stability, predictability, and
permanency, which they currently have in their foster
home, far outweighs any need to maintain a connection
with [the] mother or [the respondent]. The court concludes
that it is clearly not in the children's best interests] [to
maintain such connection). “The court must reiterate and
emphasize in its best interests] findings that (the children]
have consistently, repeatedly, and adamantly stated that
they do not want to return to either [the] mother's or (the
respondent's] care. The court finds their statements and
desires quite compelling and quite understandable in light
of the totality of the circumstances of this case. They have
all expressed the desire to be adopted by their foster
parents. Further, the court must also credit these children
for their deep insight into the flawed parenting and care
received from their parents while in their care. These
statements emphasize the court's finding that the care of
these children was never a priority for these parents.
“Accordingly, after considering the children's ages
and the totality of the circumstances, the court finds that

178a
termination of [the] mother's and [the respondent's]
parental rights is in the best interests of ... [the children].
The convincing and clear evidence has established that
[the] mother and [the respondent) are in no better position
today to provide for their children than they were at the
time of their removal. The problems that led to the
children's removal have not been rectified, and the
prospects of improvement are bleak at best, especially in
light of the fact that these children have been out of the
parents' care for four years. Despite all of the services
offered and provided to [the] mother and [the respondent],
they have clearly not sufficiently benefited from those
services in which they did engage. . These children need
the security and safety of a stable and permanent home,
which is clearly found in their current home. Further, the
court finds that it would be clearly detrimental to the well­
being of these children to delay permanency any longer in
order to allow [the] mother and the respondent] additional
time to rehabilitate especially when they have not
successfully done so over the past four years. This
conclusion is clearly and convincingly supported by the
testimony of the witnesses as well as the information
contained in the exhibits presented at the time of trial.”
(Citations omitted.)
The court ordered that the parental rights of [the]
mother and the respondent be terminated, denied [the]
motions to revoke [the] commitment [of the children to the
care and custody of the commissioner) that had been filed
by [the] mother and the respondent, and appointed the
commissioner to be the statutory parent of the children.
Ill
JUDICIAL BIAS
The first claim raised by the respondent is that
judicial bias deprived him of a fair trial. We disagree.
In analyzing his claim of judicial bias, the
respondent draws our attention to a myriad of specific
statements and rulings made by the court, both prior to
and during the lengthy trial." Additionally, the respondent
draws our attention to isolated portions of the court's
lengthy memorandum of decision. The respondent views

179a
these rulings, comments, and findings as evidence of bias.
He argues that the court “made numerous flagrantly
prejudicial comments before the commencement of the trial
and during the trial, and conducted [itself] in a prejudicial
manner throughout the trial. [The court's] bias clearly
manifested when [it] arrived at a conclusion wholly
antithetical to individual and cumulative witness
testimony.” (Footnote omitted.)
In attempting to demonstrate bias on the part of the
trial court, the respondent states in general terms that the
court had “a prejudicial agenda.” The respondent argues
that the court improperly relitigated “the findings of prior
neglect,"12 predetermined several of the factual issues in
the case, 13 drew inferences adverse to him solely on the
basis of motions that he [had] filed against [the] mother, 14
deprived him of his right to consult with counsel during
trial, 15 and made many evidentiary rulings that were
adverse to him.16 The respondent argues that the court
erroneously “preclude [d]” the testimony of several
witnesses, including Moskowitz, Gockel, Lothstein,
Humphrey, Hechtman, [department social worker
Michael] Jones, [the] mother, and himself. He also argues
that the court's decision was unfair in that the court
engaged in “strong condemnation of him] throughout (its
memorandum of decision] at every possible opportunity.”
The respondent argues that the court's decision was
unsupported by the evidence and that the court “relied on
substantial ambiguity in its decision to mask unlawful
discrimination” against him. The respondent repeatedly
characterizes the court as being partial, but he does not
articulate a reason why the court was biased against him,
let alone suggest that the court had any type of personal or
pecuniary interest in the outcome of the trial.
The respondent does not dispute that he did not
raise a claim of judicial bias before the trial court, ask the
court to recues itself, or move for disqualification. He has
chosen, instead, to wait to raise a claim of this nature only
after the court rendered its judgments terminating his
parental rights. The respondent summarily states that he
seeks review under the doctrine of plain error or under the
doctrine set forth in State v. Golding, 213 Conn. 233, 239—

180a
40, 567 A.2d 823 (1989), as modified by In re YasielR., 317
Conn. 773, 781, 120 A.3d 1188 (2015).
"It is well settled that courts (generally) will not
review a claim of judicial bias on appeal unless that claim
was properly presented to the trial court through a motion
for disqualification or a motion for a mistrial. . . . Because
an accusation of judicial bias or prejudice strikes at the
very core of judicial integrity and tends to undermine
public confidence in the established judiciary ... we ... have
reviewed unpreserved claims of judicial bias under the
plain error doctrine [when raised on appeal].” (Citation
omitted,’ internal quotation marks omitted.) Michael G. v.
Commissioner of Correction, 153 Conn. App. 556, 561—62,
102 A.3d 132 (2014), cert, denied, 315 Conn. 916, 107 A.3d
412 (2015).
In his brief, the respondent has invoked the plain
error doctrine, and we construe his arguments to constitute
an analysis under the plain error doctrine. We will review
the claim of judicial bias under the plain error doctrine
because, as the respondent argues, it implicates the
concept of a fair trial. "The plain error doctrine is an
extraordinary remedy used by appellate courts to rectify
errors committed at trial that, although unpreserved, are
of such monumental proportion that they threaten to erode
our system of justice and work a serious and manifest
injustice on the aggrieved party. [T]he plain error doctrine
... is not... a rule of revie wability. It is a rule of reversibility.
That is, it is a doctrine that this court invokes in order to
rectify a trial court ruling that, although either not
properly preserved or never raised at all in the trial court,
nonetheless requires reversal of the trial court's judgment,
for reasons of policy. ... In addition, the plain error
doctrine is reserved for truly extraordinary situations in
which) the existence of the error is so obvious that it affects
the fairness and integrity of and public confidence in the
judicial proceedings. . . . Plain error is a doctrine that
should be invoked sparingly. ...
“When an appellate court addresses a claim of plain
error, the court first must determine if the error is indeed
plain in the sense that it is patent [or] readily discernable
on the face of a factually adequate record, [and] also . . .
obvious in the sense of not debatable.... This determination

181a
clearly requires a review of the plain error claim presented
in the light of the record. ... In addition, the reviewing
court must examine that error for the grievousness of its
consequences in order to determine whether reversal under
the plain error doctrine is appropriate. A party cannot
prevail under plain error unless it has demonstrated that
the failure to grant relief will result in manifest injustice.”
(Citations omitted; internal quotation marks omitted.)
Tala E.H.V. SyedI, 183 Conn. App. 224, 233-34,192 A.3d
494 (2018), cert, denied, 330 Conn. 959, 199 A.3d 19 (2019).
"[A] claim of judicial bias strikes at the very core of
judicial integrity and tends to undermine public confidence
in the established judiciary. . . . No more elementary
statement concerning the judiciary can be made than that
the conduct of the trial judge must be characterized by the
highest degree of impartiality. If [the judge] departs from
this standard, he (or she] casts serious reflection upon the
system of which the judge] is a part. ... “In reviewing a
claim of judicial bias, this court employs a plain error
standard of review. . . . The standard to be employed is an
objective one, not the judge's subjective view as to whether
he or she can be fair and impartial in hearing the case. . . .
Any conduct that would lead a reasonable [person)
knowing all the circumstances to the conclusion that the
judge's impartiality might reasonably be questioned is a
basis for the judge's disqualification.” (Internal quotation
marks omitted.) State v. Cane, 193 Conn. App. 95, 133—34,
218 A.3d 1073, cert, denied, 334 Conn. 901, 219 A.3d 798
(2019).
After reviewing the arguments set forth in the
respondent's appellate brief, the transcript of the
proceedings before the trial court, and the court's
memorandum of decision, we conclude that the
respondent's claims of judicial bias do not, in actuality,
relate to what is commonly viewed as judicial bias at all.
The respondent's claim, as it relates to several adverse
rulings and findings, does not constitute evidence of bias.
The respondent may disagree with the court's factual
findings, yet we conclude that they were plainly based on
the evidence, relevant to the issues before the court, and
thoughtfully set out in the court's memorandum of
decision. The respondent's disagreements with the court's

182a
rulings throughout the trial generally are not a proper
basis for a claim of judicial bias. "Adverse rulings do not
themselves constitute evidence of bias. . . . Obviously, if a
ruling against a party could be used as an indicia of bias,
at least half of the time, every court would be guilty of being
biased against one of two parties. Moreover, the fact that a
trial court rules adversely to a litigant, even if some of
these rulings were determined on appeal to have been
erroneous, [still] does not demonstrate personal bias. . . .
The fact that’s a party] strongly disagrees with the
substance of the court's rulings does not make those rulings
evidence of bias.” (Citation omitted; internal quotation
marks omitted.) Burns v. Quinnipiac University, 120 Conn.
App. 311, 317, 991 A.2d 666, cert, denied, 297 Conn. 906,
995 A.2d 634 (2010).
The flaw in the respondent's numerous references to
comments and findings that were adverse to him is that, in
each instance, the court based its opinion on facts in
evidence and, rather than merely reflecting hostility to
him, they were relevant to the issues before the court. As
this court has observed^ “Opinions formed by the judge on
the basis of facts introduced or events occurring in the
course of the current proceedings, or of prior proceedings,
do not constitute a basis for a bias or partiality motion
unless they display a deep-seated favoritism or antagonism
that would make fair judgment impossible. Thus, judicial
remarks during the course of a trial that are critical or
disapproving of, or even hostile to, counsel, the parties, or
their cases, 448 ordinarily do not support a bias or
partiality challenge. They may do so if they reveal an
opinion that derives from an extrajudicial source; and they
will do so if they reveal such a high degree of favoritism or
antagonism as to make fair judgment impossible.”
(Emphasis in original; internal quotation marks omitted.)
Schimenti v. Schimenti, 181 Conn. App. 385, 395, 186 A.3d
739 (2018).
The respondent complains at length that the court
"relit gated" the "findings of prior neglect" made by Judge
Lobo in the neglect proceeding. In terminating the
respondent's parental rights, the court relied on the fact
that, during a prior proceeding, the children were found to
be neglected. The respondent erroneously conflates the

183a
finding of neglect, which the court in the present
proceeding was unable to re litigate; see, e.g., In re Stephen
M., 109 Conn. App. 644, 647, 953 A.2d 668 (2008) ("a party
is barred by the doctrine of collateral estoppels from
relitigating a previous finding of neglect during a
subsequent termination trial”); with the court's assessment
of some or all of the same evidence that may have been
presented to the court that heard the prior neglect
proceeding. With respect to the evidence presented during
the neglect proceeding, the respondent does not cite to any
authority that supports his belief that the court at the
subsequent termination of parental rights trial may not
independently assess such evidence in evaluating whether
rehabilitation, which is factually and legally distinct from
neglect, had occurred.
In this vein, the respondent states that it was
evidence of judicial bias for the court in the present case to
have "placed the blame” for the children's neglect on him,
despite the fact that Judge Lobo had not done so during the
neglect proceeding. He also faults the court for holding him
responsible for the domestic violence incident,
characterizing such finding as being contrary to the
findings of Judge Lobo in the neglect proceeding. An
adjudication of neglect relates to the status of the child and
not necessarily parental fault, yet a court in a neglect
proceeding nonetheless may clearly identify who is
responsible for that status. See, e.g., Matthew C. v.
Commissioner of Children & Families, 188 Conn. App. 687,
711, 205 A.3d 688 (2019). It was not improper for the court,
in resolving the factual issues before it, to have made
subordinate factual findings that, while not made by Judge
Lobo during the neglect proceeding, were not in any way
contrary to the finding of neglect. Moreover, Judge Lobo
plainly stated that it was unnecessary in light of the issues
before him in the neglect proceeding to determine whether
the respondent had engaged in domestic violence. 18 It was
not improper, in evaluating the critical issue of
rehabilitation, for the court in the termination proceeding
to have made findings concerning the domestic violence
incident that had not been made by Judge Lobo previously.
Additionally, there is no basis in the record in
support of the respondent's arguments that the court

184a
“precludetd]” several witnesses from testifying. The
respondent does not cite to any instance in which any of the
several persons identified in his brief were precluded from
testifying. All of the persons identified in the respondent's
brief, in fact, either testified at trial or, with respect to
Lothstein in particular, their opinion was otherwise before
the court. 19 The court considered their testimony in its
evaluation of the evidence. In essence, the respondent
disagrees with the fact that the court did not credit as true
some or all of the testimony of Moskowitz, Gockel,
Lothstein, Humphrey, Hecht man, Jones, [the] mother, and
himself. The court carefully explained its factual findings
in its memorandum of decision and, specifically, why it
discounted the weight of certain testimony and afforded
greater weight to other testimony and evidence. “[A]s a
reviewing court [w]e must defer to the trier of fact's
assessment of the credibility of the witnesses that is made
on the basis of its firsthand observation of their conduct,
demeanor and attitude. ... The weight to be given to the
evidence and to the credibility of witnesses is solely within
the determination of the trier of fact. ... In reviewing
factual findings, [w]e do not examine the record to
determine whether the [court] could have reached a
conclusion other than the one reached. . . . Instead, we
make every reasonable presumption ... in favor of the trial
court's ruling.” (Internal quotation marks omitted.)
McLeod v. A Better Way Wholesale Autos, Inc., 177 Conn.
App. 423, 450,172 A.3d 802 (2017). The respondent has not
persuaded us that the fact that the court weighed the
evidence in the manner that it did reflects judicial bias.
For the foregoing reasons, we conclude that the respondent
has not demonstrated that plain error exists.
IV
FAILURE TO REHABILITATE
Next, the respondent claims that the court
improperly found that he failed to rehabilitate. We
disagree.
First, we address the respondent's argument that
the court misconstrued the proper legal standard for
evaluating whether he failed to rehabilitate. The
respondent argues that the court improperly failed to limit

185a
its inquiry to whether he satisfied the specific steps that
were issued and failed to limit its evaluation to the
evidence of his rehabilitation that occurred after the
specific steps were issued. The respondent also argues that
the court misconstrued the legal principle of “coercive
control.” With respect to the arguments that the court
misinterpreted or misapplied current legal principles, we
apply a plenary standard of review. See, e.g., Fish v. Fish,
285 Conn. 24, 37, 939 A.2d 1040 (2008).
The respondent places great emphasis on the
following isolated finding in the court's memorandum of
decision:
“[Although the respondent] did eventually
comply with his court-ordered specific steps, that is not
enough to show rehabilitation.” Contrary to the
respondent's arguments, the court properly recognized that
a determination with respect to rehabilitation is not solely
dependent on a parent's technical compliance with specific
steps but the broader issue of whether the factors that led
to the initial commitment have been corrected. This court
has explained: “The specific steps facilitate, but do not
guarantee, the return of the child to the parent. . . .
Although a parent may have participated in the programs
recommended pursuant to the specific steps ordered, a
court may properly find that the parent has failed to
achieve rehabilitation. ... In other words, a finding of
rehabilitation is not based on a mechanistic tabulation of
whether a parent has undertaken specific steps ordered.
The ultimate issue the court must evaluate is whether the
parent has gained the insight and ability to care for his or
her child given the age and needs of the child within a
reasonable time.” (Citations omitted; emphasis omitted.) In
re Destiny R., 134 Conn. App. 625, 627, 39 A.3d 727, cert,
denied, 304 Conn. 932, 43 A.3d 660 (2012).
We also reject the respondent's argument that it was
improper for the court to have considered his conduct as of
the time of the children's removal from the family home
pursuant to an order of temporary custody in July, 2015,
rather than following the children's commitment to the
care and custody of the commissioner in December, 2017.20
Thus, the respondent relies on a belief that the date of
commitment constitutes a type of starting point in the
rehabilitative process. It is evident that, prior to the date

186a
of commitment, the respondent was on notice of the issues
that led to the children's removal from the family home.21
In the interest of reunifying with the children and ensuring
that they achieved permanency as soon as possible, the
respondent could have taken immediate steps to address
the issues. He did not, and his argument that the court
improperly considered this fact and, instead, should have
viewed the date of commitment as an artificial starting line
in the rehabilitative process is not logically sound.
Moreover, there is no legal support for the respondent's
contention.22 We also observe that, even if the respondent's
argument were correct, he is unable to demonstrate that, if
the court had confined its analysis to his conduct beginning
in December, 2017, it would have led to a different outcome
in the termination of parental rights proceeding. The
dispositive issue that was addressed by the court was
whether, by the time of the termination trial, the
respondent had rehabilitated.23
To the extent that the respondent argues that the
court misconstrued the meaning of “coercive control," the
argument is not persuasive. The respondent, citing to a
trial court opinion, urges us to conclude that "coercive
control” necessarily encompasses intimidation, threats,
and inducing fear in another. He argues that the evidence
did not reflect that he engaged in such activities with the
mother after the date when the court issued the specific
steps. It suffices to observe that "coercive control” is a
factual description of conduct; it is not a term of art for
which an objective legal definition exists. The respondent
is unable to demonstrate legal error in the court's use of
this descriptive term.
We next turn to the aspect of the claim in which the
respondent argues that the court erred in concluding that
there was clear and convincing evidence that he failed to
rehabilitate. “Pursuant to § 17a-112, [t]he trial court is
required ... to analyze the [parent's] rehabilitative status
as it relates to the needs of the particular child, and
further... such rehabilitation must be foreseeable within a
reasonable time. . . . Rehabilitate means to restore (a
parent] to a useful and constructive place in society
through social rehabilitation. . . . The statute does not
require (a parent] to prove precisely when [he] will be able

187a
to assume a responsible position in [his] child's life. Nor
does it require [him] to prove that [he] will be able to
assume full responsibility for [his child, unaided by
available support systems. It requires the court to find, by
clear and convincing evidence, that the level of
rehabilitation [he] has achieved, if any, falls short of that
which would reasonably encourage a belief that at some
future date [he] can assume a responsible position in [his]
child's life. ... In addition, [i]n determining whether a
parent has achieved sufficient personal rehabilitation, a
court may consider whether the parent has corrected the
factors that led to the initial commitment, regardless of
whether those factors were included in specific
expectations ordered by the court or imposed by the
department.
"When a child is taken into the commissioner's
custody, a trial court must issue specific steps to a parent
as to what should be done to facilitate reunification and
prevent termination of parental rights. . . . Specific steps
provide notice and guidance to a parent as to what should
be done to facilitate reunification and prevent termination
of [parental] rights. Their completion or no completion,
however, does not guarantee any outcome. A parent may
complete all of the specific steps and still be found to have
failed to rehabilitate. ... Conversely, a parent could fall
somewhat short in completing the ordered steps, but still
be found to have achieved sufficient progress so as to
preclude a termination of his or her rights based on a
failure to rehabilitate. ..[I]n assessing rehabilitation, the
critical issue is not whether the parent has improved [his
ability to manage [his) own life, but rather whether [he]
has gained the ability to care for the particular needs of the
child at issue.” (Citations omitted; internal quotation
marks omitted.) In re Yolanda V, 195 Conn. App. 334,343—
44, 224 A.3d 182 (2020).
Our Supreme Court has clarified the standard of
review that must be employed by an appellate court in a
review of a trial court's finding that a parent has failed to
rehabilitate. “We have historically reviewed for clear error
both the trial court's subordinate factual findings and its
determination that a parent has failed to rehabilitate. . . .
While we remain convinced that clear error review is

188a
appropriate for the trial court's subordinate factual
findings, we now recognize that the trial court's ultimate
conclusion of whether a parent has failed to rehabilitate
involves a different exercise by the trial court. A conclusion
of failure to rehabilitate is drawn from both the trial court's
factual findings and from its weighing of the facts in
assessing whether those findings satisfy the failure to
rehabilitate ground set forth in § 17a-112(j) (3) (B).
Accordingly, we now believe that the appropriate standard
of review is one of evidentiary sufficiency, that is, whether
the trial court could have reasonably concluded, upon the
facts established and the reasonable inferences drawn
there from, that the cumulative effect of the evidence was
sufficient to justify its (ultimate conclusion). . . . When
applying this standard, we construe the evidence in a
manner most favorable to sustaining the judgment of the
trial court." (Citation omitted; emphasis in original;
footnote omitted.) In re Shane M., 318 Conn. 569, 587-88,
122 A.3d 1247 (2015).
“A (subordinate factual] finding is clearly erroneous
when either there is no evidence in the record to support it,
or the reviewing court is left with the definite and firm
conviction that a mistake has been made. ... Great weight
is given to the judgment of the trial court because of the
trial court's] opportunity to observe the parties and the
evidence.... [An appellate court does not examine the record
to determine whether the Trier of fact could have reached
a conclusion other than the one reached.... [Rather) every
reasonable presumption is made in favor of the trial court's
ruling.” (Internal quotation marks omitted.) In re Keyashia
C., 120 Conn. App. 452, 455, 991 A.2d 1113, cert, denied,
297 Conn. 909, 995 A.2d 637 (2010).
We have set forth the court's extensive findings
concerning the adjudicative phase of the termination of
parental rights proceeding. The court not only set forth
ample findings but also set forth the evidentiary basis of
most, if not all, of its subordinate findings of fact. The
court's subordinate findings of fact are supported by the
evidence and the reasonable inferences to be drawn there
from. Moreover, the court's ultimate conclusion, that
rehabilitation had not occurred, was reasonably based on
the subordinate facts established and the reasonable

189a
inferences to be drawn there from. On the basis of ample
subordinate findings made by the court, it was reasonable
to conclude that the respondent had not gained the ability
to parent sufficiently. As the court observed, by the time of
the trial, the respondent had not recognized his role in the
circumstances that led to the children's removal from the
home, continued to undermine efforts to reunify the mother
with the children, and continued his underlying pattern of
exerting control in all matters concerning the mother, to
the detriment of his children.24 The court properly found
that the respondent failed to recognize how these failures
impacted the children. Moreover, the respondent's issues
with several of the service providers undermined a finding
that he had learned to control the coercive behaviors that
were the focal point of the very services at issue. In short,
the findings amply reflected that, by the time of the trial,
the respondent had not fully appreciated his parental
shortcomings, his inability to co parent with the mother,
and his controlling tendencies, even when such tendencies
directly affected the children. The weight of the evidence
amply supported the conclusion that, despite the fact that
the respondent had made some progress, he had not gained
the ability to set aside his personal interests and
demonstrate an ability to provide a safe, nurturing, and
stable home environment for his children.25
Having carefully reviewed the arguments in the
respondent's brief, they generally may be summarized as
an attempt to relitigate the issue of rehabilitation. The
respondent has summoned evidence that he believes
supports a finding of reunification, and he invites this court
to draw inferences that are consistent with a conclusion
that rehabilitation had occurred. Much of the evidence on
which the respondent relies was explicitly found by the
trial court either not to be credible or not to be persuasive.
This includes the respondent's own testimony, which the
court was free to reject in whole or in part. We observe that,
to the extent that the respondent claims error on the
ground that the court failed to afford sufficient weight to
the opinions of Gockel and Lothstein, such arguments are
equally unpersuasive. "The testimony of professionals is
given great weight in parental termination proceedings. ...
It is well established that [i]n a case tried before a court,
the trial judge is the sole arbiter of the credibility of the

190a
witnesses and the weight to be given specific testimony.
The credibility and the weight of expert testimony is judged
by the same standard, and the trial court is privileged to
adopt whatever testimony [it] reasonably believes to be
credible.... On appeal, we do not retry the facts or pass on
the credibility of witnesses. ... It is the quintessential
function of the fact finder to reject or accept certain
evidence, and to believe or disbelieve any expert testimony.
... The Trier may accept or reject, in whole or in part, the
testimony of an expert offered by one party or the other."
(Citations omitted; internal quotation marks omitted.) In
re Carissa K., 55 Conn. App. 768, 781—82, 740 A.2d 896
(1999).For the foregoing reasons, we reject the
respondent's claim concerning the court's finding that he
failed to rehabilitate.
V
BEST INTERESTS OF CHILDREN
Next, we address the claim that the court
improperly determined that termination of the
respondent's parental rights was in the children's best
interests. We disagree.
The scope of the respondent's arguments in the
present claim is somewhat narrow. He argues that, “the
trial court determined that the children's religious
affiliation is insignificant in this [termination of parental
rights] proceeding” and that, in the dispositional phase of
the proceeding, the court "disregarded the children's
religious affiliation.” The respondent focuses on the
undisputed evidence that the children's foster parents were
not Muslim and that they had introduced the children to
religious beliefs that differed from his Muslim beliefs. The
respondent argues that the court disregarded General
Statutes § 45a-707 (8)26 and that, “[i]f the [termination of
parental rights judgment] were to be affirmed, the children
would have to be adopted by a Muslim family of like
religious faith that has the ability to sustain the children's
religious affiliation . ..." The respondent also argues that
“[p] lacing the children with yet a different family for
adoption is not in the children's interest in sustained
growth, development, well-being, and in the continuity and
stability of [their] environment.” Finally, he asserts that
“the foster parents have failed to fulfill their statutory

191a
obligation to furnish social and religious guidance for the
children, and have intentionally exposed the children to
different religious beliefs.”
"In the dispositional phase of a termination of
parental rights hearing, the emphasis appropriately shifts
from the conduct of the parent to the best interest of the
child. ... It is well settled that we will overturn the trial
court's decision that the termination of parental rights is
in the best interest of the (child) only if the court's findings
are clearly erroneous. . . . The best interests of the child
include the child's interests in sustained growth,
development, well-being, and continuity and stability of
[his or her] environment. ... In the dispositional phase of
a termination of parental rights hearing, the trial court
must determine whether it is established by clear and
convincing evidence that the continuation of the
respondent's parental rights is not in the best interest of
the child. In arriving at this decision, the court is mandated
to consider and make written findings regarding seven
statutory factors delineated in [§ 17a-112 (k)].... The seven
factors serve simply as guidelines for the court and are not
statutory prerequisites that need to be proven before
termination can be ordered. ... There is no requirement
that each factor be proven by clear and convincing
evidence.” (Footnote omitted; internal quotation marks
omitted Jin re Joseph M., 158 Conn. App. 849, 868-69, 120
A. 3d 1271 (2015).
"On appeal, our function is to determine whether the
trial court's conclusion was factually supported and legally
correct. ..In doing so, however, [g]reat weight is given to the
judgment of the trial court because of the court's]
opportunity to observe the parties and the evidence.. .. We
do not examine the record to determine whether the Trier
of fact could have reached a conclusion other than the one
reached. . . . [Rather] every reasonable presumption is
made in favor of the trial court's ruling. ...
"[T]he balancing of interests in a case involving
termination of parental rights is a delicate task and, when
supporting evidence is not lacking, the trial court's
ultimate determination as to a child's best interest is
entitled to the utmost deference. ... Although a judge

192a
[charged with determining whether termination of
parental rights is in a child's best interest] is guided by
legal principles, the ultimate decision [as to whether
termination is justified] is intensely human. It is the judge
in the courtroom who looks the witnesses in the eye,
interprets their body language, listens to the inflections in
their voices and otherwise assesses the subtleties that are
not conveyed in the cold transcript.” (Citations omitted;
internal quotation marks omitted.) In re Malachi E., 188
Conn. App. 426, 443-44, 204 A.3d 810 (2019).
The respondent's claim is not persuasive for several
reasons. First, his insistence that the court deemed the
children's religious affiliation to be insignificant is belied
by the court's memorandum of decision, which reflected the
court's consideration of the children's faith. The court
observed that the respondent identified as a member of the
Muslim faith and that the length of his visits with his
children had been extended for the expressed purpose of
permitting him to engage in religious instruction with
them. Also, at the respondent's request, the department
transported the children to a mosque for the purpose of
permitting the children to obtain religious instruction at
the respondent's request. As the court found, however, the
respondent did not follow through on providing religious
instruction to the children on a consistent basis. Also, the
court found that, despite the respondent's complaints
concerning the religious practices of the foster parents,
which were different from those of the respondent, the
foster parents had not forced the children to engage in any
type of religious practices. The court found that the
respondent had not made any significant efforts with
respect to fostering religious beliefs in the children, he had
not engaged in prayer with the children, and the children,
who had expressed anxiety concerning their religious
identities, had not attended religious services prior to their
removal from the family home.
Second, the respondent appears to view as a
foregone conclusion that the children's religious identities
are rooted in the Muslim faith. On the basis of the evidence,
the court found that the children's other biological parent,
the mother, who was a practicing Muslim when the
children were in her care, had, during the events leading

193a
up to the termination of her parental rights, expressed her
desire to introduce the children to other religious practices
and had celebrated other religious holidays, such as
Christmas, with them. Certainly, in terms of gauging the
children's religious identity, to the extent that it was
relevant in the dispositional phase of the termination
proceeding, the court properly considered the children's
religious beliefs, if any, of both of their biological parents,
not simply those of the respondent.
Third, and most importantly, the respondent's
arguments reflect a fundamental misunderstanding of the
nature of the court's inquiry and the court's finding in the
dispositional phase of the proceeding. As we have stated
previously, the court's inquiry in the dispositional phase of
the proceeding was properly focused on whether
termination of the respondent's parental rights was in the
children's best interest. The respondent, however, invites
this court to overturn the court's finding on the basis of the
unrelated issue of whether the children's foster parents
shared his religious beliefs or whether they would fulfill an
obligation to raise the children in the Muslim faith. Even if
a legal requirement exists that the children be placed in a
care setting that would nurture the religious faith of the
children or the respondent,27 the respondent has failed to
demonstrate how the department's or the court's failure to
comply with such requirement is a basis on which to
challenge the court's determination that the children's best
interests were served by terminating his parental rights.
Stated otherwise, the respondent, relying on what he
deems to be a weakness in the foster parents, is unable to
demonstrate that his parental rights were terminated
erroneously. As this court has observed, “[alfter the
statutory grounds for termination are proved by clear and
convincing evidence in an adjudicatory phase, the question
then to be decided in a dispositional phase is whether it is
in the best interests of the child to sever the parent-child
relationship. That is different from the question of who
should have custody of the child if termination of parental
rights is determined to be in the best interests of the child.”
(Internal quotation marks omitted.) In re Carissa K.,
supra, 55 Conn. App. 776. Accordingly, we reject the
respondent's claim.28

194a
VI
DEPARTMENT'S REUNIFICATION EFFORTS
Next, the respondent claims that the court
improperly found that the department made reasonable
efforts to reunify him with his children. We disagree.
The respondent does not distinctly challenge any of
the court's detailed factual findings concerning the many
services that were offered to him by the department or the
degree to which he engaged in those services. We already
have set forth the court's detailed findings in this regard in
part I of this opinion and rely on them in the present claim.
Instead,
the respondent challenges the court's
determination that reasonable efforts were made, arguing
in broad terms that the department "unreasonably
prolonged the stay of the children in foster care for over
four years” and, thus, failed to achieve permanency for the
children. He also argues in broad terms that the
department
did
not
“[address]
the
children's
misunderstandings of their father in therapy...." In specific
terms, the respondent argues that the department acted
unreasonably in that it suspended his overnight visits with
the children. He refers to the fact that, at the time of the
neglect proceeding, it was made clear to the court that
Omar had expressed his preference not to visit with the
respondent. Judge Lobo stated that the matter should be
addressed with Omar in a therapeutic setting. In arguing
that the subsequent efforts made by the department were
unreasonable, the respondent focuses on the fact that the
department did not force Omar to have overnight visits
with him. He argues: “[The department] took unilateral
action by suspending the overnight visits altogether. By
doing so, [the department] validated whatever underlying
fears that might have been implemented in the children's
minds, which prompted them to start to reject overnight
visits after their initial acceptance, and thus created an
'untrue barrier' violating the statutory mandate of
reasonable efforts." The respondent argues that the
department created a barrier between him and his
children, thereby undermining what he believes to be the
strong bond that existed between him and his children at
the time of their removal. Moreover, the respondent argues
that the department violated General Statutes § 17a-9629

195a
by placing the children in a household that did not foster
the Muslim faith.
Before addressing these arguments, we set forth
some relevant principles. Pursuant to § 17a-112 (j), the
court may grant a petition to terminate parental rights “if
it finds by clear and convincing evidence that ... (l) the
(department] has made reasonable efforts to locate the
parent and to reunify the child with the parent in
accordance with subsection (a) of section 17a-lllb.” In the
present case, the petitions for termination of parental
rights alleged that such efforts were made and, as our
recitation of the court's findings reflects, the court found
that such efforts were made. “The ‘reason Next, the
respondent claims that the court improperly found that the
department made reasonable efforts to reunify him with
his children. We disagree. The respondent does not
distinctly challenge any of the court's detailed factual
findings concerning the many services that were offered to
him by the department or the degree to which he engaged
in those services. We already have set forth the court's
detailed findings in this regard in part I of this opinion and
rely on them in the present claim. Instead, the respondent
challenges the court's determination that reasonable
efforts were made, arguing in broad terms that the
department "unreasonably prolonged the stay of the
children in foster care for over four years” and, thus, failed
to achieve permanency for the children. He also argues in
broad terms that the department did not “[address] the
children's misunderstandings of their father in therapy ...."
In specific terms, the respondent argues that the
department acted unreasonably in that it suspended his
overnight visits with the children. He refers to the fact
that, at the time of the neglect proceeding, it was made
clear to the court that Omar had expressed his preference
not to visit with the respondent. Judge Lobo stated that the
matter should be addressed with Omar in a therapeutic
setting. In arguing that the subsequent efforts made by the
department were unreasonable, the respondent focuses on
the fact that the department did not force Omar to have
overnight visits with him. He argues^ “[The department]
took unilateral action by suspending the overnight visits
altogether. By doing so, [the department] validated
whatever underlying fears that might have been

196a
implemented in the children's minds, which prompted
them to start to reject overnight visits after their initial
acceptance, and thus created an 'untrue barrier' violating
the statutory mandate of reasonable efforts." The
respondent argues that the department created a barrier
between him and his children, thereby undermining what
he believes to be the strong bond that existed between him
and his children at the time of their removal. Moreover, the
respondent argues that the department violated General
Statutes § 17a*9629 by placing the children in a household
that did not foster the Muslim faith. Before addressing
these arguments, we set forth some relevant principles.
Pursuant to § 17a-112 (j), the court may grant a petition to
terminate parental rights “if it finds by clear and
convincing evidence that ... (l) the (department] has made
reasonable efforts to locate the parent and to reunify the
child with the parent in accordance with subsection (a) of
section 17a-111b.” In the present case, the petitions for
termination of parental rights alleged that such efforts
were made and, as our recitation of the court's findings
reflects, the court found that such efforts were made. “The
‘reason able ness' of the department's efforts must be
assessed in the context of each case. The word reasonable
is the linchpin on which the department's efforts in a
particular set of circumstances are to be adjudged, using
the clear and convincing standard of proof. Neither the
word reasonable nor the word efforts is, however, defined
by our legislature or by the federal act from which the
requirement was drawn. . . . Reasonable efforts means
doing everything reasonable, not everything possible. ...
Reasonableness is an objective standard . .. and whether
reasonable efforts have been proven depends on the careful
consideration of the circumstances of each individual case.

"This court has applied the general meaning of
'reasonable and stated that [i]t is axiomatic that the law
does not require a useless and futile act.” (Citation omitted;
internal quotation marks omitted.) In re Kyara H., 147
Conn. App. 855, 872—73, 83 A.3d 1264, cert, denied, 311
Conn. 923, 86 A.3d 468 (2014).
"[T]he court's determination as to whether the
department made reasonable efforts toward reunification

197a
is a legal conclusion drawn from the court's subordinate
factual findings. Therefore, we apply a clearly erroneous
standard of review as to the court's underlying factual
findings, and we review the court's legal determinations of
reasonable efforts and of failure to rehabilitate for
sufficient evidence.” (Internal quotation marks omitted.) In
re Quamaine K, 164 Conn. App. 775, 783, 137 A.3d 951,
cert, denied, 321 Conn. 919, 136 A.3d 1276 (2016).
None of the respondent's arguments is persuasive.
First, we observe that the department did, in fact, take
steps to ensure that the children achieved a sense of
permanency during the events leading up to the
termination of the respondent's parental rights. It is
undisputed that since the time of their removal, the
children have been residing with one another and that they
have been cared for by their foster parents. As the court
found, since the time of their removal, the children have
bonded with their foster parents and have been provided
with a living environment that adequately met their
physical and emotional needs. In light of the court's
findings concerning the difficulties posed by the
respondent in participating in the services offered to him
by the department, as well as the impediments that he
raised to the department's efforts to reunite the children
with both of their biological parents, it is disingenuous for
the respondent to complain that the department is to blame
for the fact that the children were in foster care for a
lengthy period of time.
Second, the respondent is unable to demonstrate
that the department's decision to suspend overnight visits
undermines the court's determination that reasonable
efforts at reunification were made by the department. The
court made ample findings concerning overnight visits,
none of which is distinctly challenged by the respondent.
The court found that, in therapeutic settings and
otherwise, each of the children had expressed their
opposition to the visits. The court also found that, after
discussions were had with Omar concerning overnight
visits, he had bed-wetting issues for the first time in
several months.30 We are mindful, as well, that the
children's opposition to overnight visits must be viewed in
light of the
respondent's
shortcomings
during

198a
unsupervised visits, which led the court to discontinue
unsupervised visits. These shortcomings were thoroughly
addressed by the court in its memorandum of decision. It
suffices to reiterate that, at times, the respondent failed to
adequately supervise and engage with the children during
these visits. Moreover, the court noted the respondent's
disturbing indifference to the dangers posed to Safiyah by
her half-brothers. In light of the facts in their totality, the
respondent has failed to demonstrate that the failure to
compel the children to engage in overnight visits was
unreasonable or that it detracted from the court's finding
that reasonable efforts had been made by the department
to reunify him with his children.

Third, to the extent that the respondent attempts to
undermine the court's reasonable efforts determination on
the ground that the department did not place the children
with a foster family of the Muslim faith, the argument is
not legally sound. The court properly found that the
respondent was afforded an ample opportunity to engage
his children in matters of faith during his visits with them,
something that he failed to do. Even if we were to assume,
contrary to the evidence, that the respondent's faith, and
not that of the mother, was the children's faith, a rational
interpretation of § 17a96 did not require the department to
place the children with foster parents who would foster the
Muslim faith in them. For the foregoing reasons, the
respondent has failed to demonstrate that the court
improperly determined that reasonable efforts were made
to reunify him with his children.
VII
DEPARTMENT'S SUPPORT OF CHILDREN'S
PETITIONS
Next, the respondent argues that the department
was estopped from supporting the petitions brought by the
children to terminate his parental rights. We decline to
review this unpreserved claim.
The following relevant procedural history is
reflected in the record. On November 8, 2018, the children
filed petitions to terminate the respondent's parental

199a
rights. Initially, the department did not support the
petitions. In a trial management conference memorandum
that was submitted to the court on November 19, 2018, the
department, among other things, recommended that
reunification efforts, with the mother's home as the
primary physical residence of the children, continue.31 The
memorandum stated, in relevant part: “[The department]
is not in support of legally severing the parents' right to
reunify with their children at this time, as they have
cooperated with rehabilitative efforts, have made
significant progress in addressing the issues that [led] to
the children's commitment, are appropriate during
visitation with the children, and the children are making
progress in family therapy.” By the time that the trial on
the petitions for termination of parental rights commenced,
the department had changed its position and had adopted
the children's petitions.32
For the first time on appeal, the respondent raises
the doctrine of equitable estoppel. He argues that the
department's pretrial memorandum, which he erroneously
refers to as a “certificate of estoppel," was calculated to
induce him to believe that he had rehabilitated. Moreover,
he argues that, to his detriment, he relied on and acted on
the belief that he had rehabilitated. The respondent does
not provide this court with any details of how he changed
his conduct or how this change in conduct was to his
detriment. He states that, at the time of closing argument
during the termination of parental rights trial, his trial
counsel made “[a] diligent effort to find the truth on this
matter . . . .933 The respondent states: “It is highly
inequitable and oppressive not to estop (the department]
from changing a clear position attesting that the
[respondent] had rehabilitated and had made significant
progress resolving all issues that [led to the] commitment,
into the exact opposite (position] of adopting the
[termination of parental rights] petitions.” (Emphasis in
original.)
"The doctrine of equitable estoppels is well
established. [W]here one, by his words or actions,
intentionally causes another to believe in the existence of a
certain state of things, and thereby induces him to act on
that belief, so as injuriously to affect his previous position,

200a
he is [precluded] from averring a different state of things
as existing at the time. ... In its general application, we
have recognized that Where are two essential elements to
an estoppel—the party must do or say something that is
intended or calculated to induce another to believe in the
existence of certain facts and to act upon that belief, and
that the other party, influenced thereby, must actually
change his position or do some act to his injury which he
otherwise would not have done. ... [T]here must generally
be some intended deception in the conduct or declarations
of the party to be estopped, or such gross negligence on his
part as amounts to constructive fraud, by which another
has been misled to his injury. ... In the absence of
prejudice, estoppel does not exist.” (Citations omitted;'
internal quotation marks omitted.) Gaddy v. Mount
Vernon Fire Ins. Co., 192 Conn. App. 337, 351—52, 217 A.3d
1082 (2019). “The party claiming estoppel... has the burden
of proof. . . . Whether that burden has been met is a
question of fact that will not be overturned unless it is
clearly erroneous.” (Internal quotation marks omitted.)
Celentano v. Oaks Condominium Assn., 265 Conn. 579,
614, 830 A.2d 164 (2003).
For several reasons, we are unable to reach the
merits of the respondent's estoppel claim. First and
foremost, because the issue is being raised for the first time
on appeal, there is no ruling by the trial court for this court
to review. Moreover, the respondent has not provided this
court with any legal basis on which to review this
unpreserved claim. As the authority cited previously
reflects, the issue of whether the doctrine of estoppel
applies is inherently fact bound. Even if we were to attempt
to consider the merits of the claim, one of the consequences
of the respondent's failure to raise the issue at trial is that
there is no evidence to review with respect to the issues of
why the department changed its position or whether the
respondent changed his conduct in reliance on the
department's change in its position. The respondent's one­
sided assertions with respect to these issues are not a
substitute for an adequate evidentiary record.

201a
VIII
MOTION TO REVOKE COMMITMENT
Finally, the respondent claims that the court improperly
denied his motion for revocation of commitment. In his
summary analysis of this claim, the respondent argues
that, for the reasons already set forth in the context of his
other claims raised on appeal, he has demonstrated that
the cause underlying the children's commitment no longer
exists. Specifically, he argues that he has demonstrated in
this appeal that “parental conflict no longer exists.” The
respondent's claim fails because we have rejected the other
claims he has raised in this appeal. The argument that the
cause underlying the commitment no longer exists is
contrary to the court's findings, which, for the reasons
previously discussed, we conclude are supported by the
evidence and the rational inferences to be drawn there
from. Accordingly, we reject this claim.
The judgments are affirmed.
In this opinion the other judges concurred.
* In accordance with the spirit and intent of General Statutes § 46b142
(b) and Practice Book § 79a-12, the full names of the parties involved
in this appeal are not disclosed. The records and papers of this case
shall be open for inspection only to persons having a proper interest
therein and upon order of the Appellate Court.
** May 27, 2020, the date that this decision was released as a slip
opinion, is the operative date for all substantive and procedural
purposes.
1 The children's mother, whose parental rights also were terminated,
filed a separate appeal from the judgments of the trial court; see
footnote 7 of this opinion; and did not participate in this appeal. We
therefore refer in this opinion to the respondent father as the
respondent. During the termination of parental rights proceeding, the
respondent was represented by counsel. The respondent is appearing
in a self-represented capacity in the present appeal.
2 The respondent listed sixteen separate claims of error in the
statement of the issues portion of his appellate brief. In the analysis
portion of his brief, however, the respondent did not address these
sixteen claims separately, but he analyzed these claims, to varying
degrees, in the context of the six claims of error that we will address in
this opinion. 3 In the present action, the court, Burgdorff, J., observed:
"[The respondent's] final specific steps included the following:

202a
Cooperate and keep appointments with [the department) and keep the
department informed of his address; undergo individual and parenting
counseling and make progress toward identified treatment goals to
provide a safe and stable home environment for the children,
understand intimate partner violence, coercive control dynamics and
how interpersonal conflict impacts children, recognize and work
through co-parenting conflicts, develop effective communication and
healthy dispute resolution with (the) mother, and understand the
children's therapeutic needs, respect [the] mother's choice of religious
spirituality; accept in-home support services referred by [the
department) and cooperate with them; cooperate with service providers
recommended for counseling; cooperate with recommendations
regarding assessment and treatment; cooperate with court-ordered
evaluations and testing,' sign releases to enable [the department) to
communicate with service providers; sign releases for the children; get
and maintain adequate housing and legal income; immediately let [the
department] know about any changes in the household; cooperate with
restraining protective order and/or other appropriate safety plan
approved by [the department]; keep [the] children in [the] state of
Connecticut; visit (the children] as often as [the department) permits;
do not get involved with [the] criminal justice system and cooperate
with [the] Office of Adult Probation or parole officer and follow
conditions of probation or parole,' take care of the children's physical,
educational, medical or emotional needs, including keeping the
children's] appointments with medical or educational providers; make
all necessary child care arrangements to make sure [the children are]
properly supervised and cared for by appropriate caretakers; utilize,
cooperate with, and follow [the] recommendations of [the] co-parenting
coordinator. [The department) is to perform autism reassessment for
Omar, explore/address (an) orthodontic surgery issue for Safiyah,
ensure (that the children's fears and misunderstandings surrounding
[the respondent] and Islam are addressed in therapy, [and] ensure that
the] foster parents support the children's Muslim faith.”
4 On June 7, 2017, prior to the trial on the neglect petitions, the court,
Frazzini, J., appointed attorneys to represent each of the children.
Each of the children, through his or her attorney, subsequently filed
the petitions to terminate the respondent's parental rights.
General Statutes § 17a-112 (a) provides in relevant part: "In respect
to any child in the custody of the Commissioner of Children and
Families in accordance with section 46b-129, either the commissioner,
or the attorney who represented such child in a pending or prior
proceeding, or an attorney appointed by the Superior Court on its own
motion, or an attorney retained by such child after attaining the age of
fourteen, may petition the court for the termination of parental rights
with reference to such child. ..."
5 General Statutes § 17a-112 (l) provides in relevant part: "The
Superior Court, upon notice and hearing as provided in sections 45a716 and 45a717, may grant a petition filed pursuant to this section if
it finds by clear and convincing evidence that ... (3) ... (B) the child (i)
has been found by the Superior Court... to have been neglected, abused

203a
or uncared for in a prior proceeding . . . and the parent of such child
has been provided specific steps to take to facilitate the return of the
child to the parent pursuant to section 46trl29 and has failed to
achieve such degree of personal rehabilitation as would encourage the
belief that within a reasonable time, considering the age and needs of
the child, such parent could assume a responsible position in the life of
the child ....
" The court denied the respondent's subsequent motion for articulation,
noting that the court's "unambiguous findings are detailed and set
forth in its decision." Later, this court granted the respondent's motion
for review of the trial court's ruling but denied the relief requested
therein.
7 The mother filed a separate appeal from the trial court's judgments,
which this court dismissed in October, 2019.
8 In this appeal 1, the respondent has raised several claims, and they
touch 463 on not only the trial court's conduct throughout the trial but
on nearly every aspect of its decision. The court had a great deal of
evidence before it, and its decision sets forth a multitude of relevant
findings. This is not surprising in light of the fact that, as of the time
of the trial, the children had been in the custody of the commissioner
for nearly four years. In light of the nature of the claims, as well as the
fact that it is necessary for this court to refer to the trial court's detailed
findings of fact in our analysis, we believe that it is necessary to set
forth verbatim many of the court's findings.
9 The court found that many of the filings of the respondent "contained
clear misrepresentations, falsehoods, and inconsistencies, including
extremely disturbing aspersions as to [the] mother, all of which have
damaged [the respondent's] credibility in [the] eyes of this court."
10 At this point in its decision, the court set forth the following finding
in a footnote: "The court does not find these conclusions persuasive
based on the credible evidence presented to the court and based on Dr.
Gockel's lack of independent verification of the information given to
him by the respondent]."
11 It would serve no useful purpose to analyze each and every instance
of alleged judicial bias that is discussed by the respondent in his
appellate brief. Although we will discuss many of the specific points
raised in the claim, in the interest of judicial economy, we may dispose
of the claim by addressing some of the more prominent arguments in
his brief as well as the general principles that defeat his claim. We
note, however, that we have considered all of the arguments raised in
his claim, and that our analysis applies to and encompasses all of the
arguments raised.
12 The respondent argues that, during the neglect proceeding, Judge
Lobo did not determine "which parent was responsible for the
adjudication of neglect," but that the court in the present proceeding
“blamed [him] entirely." The respondent argues that the doctrine of

204a
collateral estoppels precluded the court from relit gating the findings
of prior neglect."
13 In support of this view, the respondent observes that, at a pretrial
motions hearing on January 8, 2019, during which the respondent's
counsel argued that an updated evaluation of the children and an
updated report from Lothstein were necessary, the court expressed its
concern that the respondent was "trying to control” the situation with
regard to Lothstein. The court also observed that Lothstein's prior
report was based primarily on information that had been provided to
him by the respondent and, thus, was "very one-sided." The record
reflects that the court's observation was based on its review of matters
that the parties had agreed to be marked as trial exhibits, and the court
made clear that its view was based on information reflected in those
exhibits.
14 The respondent states that, before the trial started, the court
indicated that it had reviewed numerous motions that he had filed and
disparaged him as follows: "I saw [that the respondent] filed numerous
filings with the court, numerous filings . ... There's a lot of them in
there ... and I know a lot of them were denied.... I learned a lot about
the case by what he filed.... I'm personally taking judicial notice of all
the contents of the file since day (one), so counsel may . . . (refer to
matters in the court file]." Thereafter, in a response to a request by
Omar's counsel for the court to take judicial notice of the neglect and
dissolution files, the court advised counsel to direct it to specific
portions of the files. The court stated: “There's a lot of information and
history ... in these various motions that was very enlightening to the
court to read and ... I got a general idea of what the issues are in the
file.". The respondent argues that, in its memorandum of decision, the
court made clear that it was penalizing him for his history of bringing
motions against the mother. We observe that the court's observation
and its findings were based on matters properly before it, as the parties
agreed that the court could review the evidence before Judge Lobo
during the neglect proceeding. Moreover, the issue of the respondent's
litigation history with the mother was relevant to the issue of whether
the respondent had gained the ability to co parent with the mother and,
thus, was one of the central issues before the court in ruling on the
termination of parental rights petitions.
15 The respondent does not provide any details of the instance during
which he claims that the court "denied his request to consult with his
counsel during trial...." Although, in his brief, he provided a transcript
citation to this alleged occurrence, the transcript does not reflect that
any such request to consult with counsel was made.
16 Part of the respondent's claim is that the court was not evenhanded
in its rulings and prevented (the respondent's] counsel from asking
questions regarding the history of the case while allowing opposing
parties to do the same." The respondent has not provided relevant
citations to the record to demonstrate such a pervasive pattern of
rulings. It is not the role of this court to scrutinize the record of the
lengthy trial in an attempt to justify this aspect of the claim.

205a

17 The respondent observes that, during the mother's testimony, an
objection was raised with respect to questions concerning the domestic
violence incident. The court stated in relevant part: "I think this
question is a valid question in light of what I have to decide because I
have to decide if I'm going to let these children go back to either or both
parents. I need to have a good understanding of the past history with
the violence. I've read some of the reports. I read the police report about
what transpired in the house that day, which is very, very concerning
to the court, very concerning. And, quite frankly, I think it was horrific,
but I certainly think that's a valid question."
The respondent argues that this comment, as well as the
court's subsequent findings in the memorandum of decision concerning
his role in the domestic violence incident reflects that Judge Burgdorff
deemed him guilty of having committed "a horrific crime" and, thus,
she should have rescued herself." The respondent argues that such
findings are "starkly inconsistent" with Judge Lobo's findings in the
neglect proceeding. It suffices to observe that the court heard ample
evidence that the respondent engaged in domestic violence by having
entered the family home against the mother's wishes on July 29, 2015,
and having forced himself into the mother's locked bedroom. Thus, the
court's comment in ruhng on the objection and its later findings were
properly based on evidence before the court and the reasonable
inferences to be drawn there from.
18 In his decision adjudicating the children neglected, Judge
Lobo stated in relevant part: "One of two things happened (during the
alleged domestic violence incident). Either (the respondent) forcibly
assaulted [the mother) or the assault didn't happen, and the mother)
cut herself and exposed the children to her state afterward, in which
she's described as being covered in blood by the children.. . . That they
were arguing and yelling ... the court finds that... most likely credible.
Either one of those two things occurred. And the court really doesn't
need to determine which one it is because [the resolution of the neglect
petitions) comes down to the condition of the children at the time of the
fifing of the petitions."
19 We observe that, at trial, the court explicitly afforded the
respondent's counsel an opportunity to present five testimony from
Lothstein. The respondent's counsel, however, indicated his preference
to introduce a transcript of Lothstein's testimony at a prior proceeding
as well as a report Lothstein authored.
20 As is reflected in the court's memorandum of decision, the
court noted that it had considered the respondent's failure to
rehabilitate during the four years since the children's removal from the
family home.

206a
21 The record reflects that, on August 7, 2015, following the
ten day hearing on the order of temporary custody, the respondent was
provided with and signed a document containing the preliminary
specific steps he needed to take to promote his rehabilitation and
reunification with the children. One of the steps required the
respondent to "cooperate with service providers recommended” by the
department. Although, prior to the trial on the neglect petitions, the
respondent engaged in some recommended services, Judge Lobo found
it noteworthy, in fight of the unique co parenting failings that
contributed significantly to the children's removal from the family
home, that the respondent had not engaged in the services of a
parenting coordinator. A department social study filed prior to the
neglect trial referred to the fact that, when he was "re-referred” to meet
with a parenting coordinator, he deemed such services to be
unnecessary. Additionally, Judge Lobo, in ruling on the neglect
petitions, observed in relevant part: "[The respondent] feels that his
one day family course was enough to not need a parenting coordinator.
The court will note that a one day parenting course in family court does
not equal working with a parenting coordinator over a period of time.
[The respondent) opined that the system itself is at fault regarding the
children's prolonged presence in foster care and ... testified that any
controlling and coercive behavior in the past can be interpreted in
different ways. During the course of the testimony and the course of
the questioning, and (as is reflected in the documentary evidence
presented, the respondent] feels that he in no way, shape or form owns
anything as to the reason for the children's removal."
22 As the commissioner states in her brief, § 17a-112 (l) (3) (B)
(ii) provides that, in certain circumstances, a petition that is based on
a failure to rehabilitate may be adjudicated even in the absence of a
finding of neglect and, pursuant to General Statutes § 46b-129 (b),
upon the issuance of an ex parte order, the court must provide "specific
steps" to each parent to address the ex parte order and to regain
custody of his or her child.
23 The respondent also argues that the court committed legal
error by considering “ what happened between [him) and the mother
during their marriage” because "those issues ceased to exist after the
date [that the court issued specific steps]." The respondent’s argument
completely ignores the fact that, to determine whether he had
rehabihtated, it was necessary for the court to understand the scope of
the problems, particularly the issues involving co-parenting, that led
to the children's removal from the family home and their ultimate
adjudication as neglected children.
24 We take judicial notice of the fact that, in October, 2018,
shortly before the termination of parental rights trial commenced, the

207a
respondent filed a motion to open the judgment dissolving his marriage
to the mother. In an appeal from the denial of that motion, the
respondent, referring to the domestic violence incident at the marital
home, argued that the mother had perpetrated "a criminal fabrication
of a bloody assault
25 The court had before it proposed orders that were filed by
the respondent in the dissolution action in May, 2016. One of the orders
he proposed was that the respondent "shall reserve the right to file a
post judgment motion in family court for a final ruling on custody of
the three children." Thus, despite the fact that the family court had
deferred a decision on the issue of custody and visitation to the juvenile
court, the respondent remained intent on continuing the custody battle
if the decision of the juvenile court was not to his satisfaction. This
action reflects his lack of insight into the children's need for stability
and his self-absorbed determination to get his own way.
26 General Statutes § 45a-707 (8), defines "termination of
parental rights” as "the complete severance by court order of the legal
relationship, with all its rights and responsibilities, between the child
and the child's parent or parents so that the child is free for adoption
except it shall not affect the right of inheritance of the child or the
religious affiliation of the child."
27 The respondent erroneously suggests that § 45a-707 (8) sets
forth such a requirement. We observe that General Statutes § 46b-129
expresses a legislative preference, rather than an obligation, that,
during a commitment following a finding of neglect, the commissioner
place children entrusted to his or her care in an environment that is
consistent with the religious faith of the child or parent.
General Statutes § 46b-129 (l) (4) provides in relevant part: "In
placing such child or youth, the commissioner shall, if possible, select
a home, agency, institution or person of like religious faith to that of a
parent of such child or youth, if such faith is known or may be
ascertained by reasonable inquiry, provided such home conforms to the
standards of the commissioner and the commissioner shall, when
placing siblings, if possible, place such children together...." (Emphasis
added.)
We note that, in the present case, the department complied
with the preference codified in § 46b-129, in that it accomplished the
very difficult task of placing three siblings with highly specialized
needs together in the same foster home of a nonrelatives and that, at
the time of the trial, the placement had remained stable for almost four
years.

208a
28 In the context of his analysis of this claim, the respondent
focused on the issue of religion. At the conclusion of his analysis,
however, the respondent stated in general terms that “[n]o ... proof was
presented during trial to support a finding that placement with the
respondent] is not in the children's best interests.” This cursory
statement, unsupported hy legal analysis or reference to the record,
may be an attempt to challenge the court's detailed findings in the
dispositional phase of the proceeding, yet it is legally insufficient. “[W]e
are not required to review issues that have been improperly presented
to this court through an inadequate brief. . . . Analysis, rather than
mere abstract assertion, is required in order to avoid abandoning an
issue by failure to brief the issue properly.” (Internal quotation marks
omitted.) Ward v. Greene, 267 Conn. 539, 546, 839 A.2d 1259 (2004).
Accordingly, we do not address in further detail this aspect of the claim.
29 General Statutes § 17a-96 provides in relevant part: "In
placing any child in a foster home, the commissioner shall, if
practicable, select a home of like religious faith to that of the parent or
parents of such child, if such faith is known or ascertainable by the
exercise of reasonable care." Emphasis added.)
30 The record reflects that, at the time of the neglect
proceeding, Omar began expressing his desire not to have visits with
the respondent. The respondent states in his brief to this court that, at
the time of the court's judgments in the neglect proceeding, Judge Lobo
required the department to address the issue in therapy. In addition to
stating that Omar's opposition to visits was an issue to be addressed
"in therapy to work that out," Judge Lobo also stated: “If [Omar)
doesn't want to visit, I'm not going to force him to visit." Contrary to
the respondent's suggestion that the department failed to comply with
Judge Lobo's directive that the children be enrolled in therapy, the
evidence reflected that all three children were in therapy soon after the
neglect proceeding took place.
31 In the memorandum, the department also disagreed with
the respondent's motion for revocation of commitment, observing that
reunification must be based upon a slow transition, whereby the
children become more confident in their parents' ability to safely co
parent them, and display a significant reduction or elimination of
regressive behaviors and emotional distress in relation to the specter
of reunification."
32 By the time of the termination of parental rights trial, the
children had been in the custody of the commissioner for nearly four
years.
Relevant statutes prohibit, except in limited circumstances, the type of
lengthy stays in foster care that the children in the present case were

209a
forced to endure. General Statutes § 17a*llla provides in relevant
part: "
(a) The Commissioner of Children and Families shall file a
petition to terminate parental rights pursuant to section 17a-112 if (l)
the child has been in the custody of the commissioner for at least fifteen
consecutive months, or at least fifteen months during the twenty-two
months, immediately preceding the filing of such petition ....
"(b) Notwithstanding the provisions of subsection (a) of this
section, the commissioner is not required to file a petition to terminate
parental rights in such cases if the commissioner determines that: (l)
The child has been placed under the care of a relative of such child! (2)
there is a compelling reason to believe that filing such petition is not
in the best interests of the child; or (3) the parent has not been offered
the services contained in the permanency plan to reunify the parent
with the child or such services were not available, unless a court has
determined that efforts to reunify the parent with the child are not
required.” (Emphasis added.) See also 45 C.F.R. § 1356.21, which sets
forth, inter alia, federal guidelines for concurrent planning and family
reunification with regard to children placed in foster care.
The record reflects that, until nearly the eve of trial, the
commissioner proposed permanency plans that sought to further
reunification efforts while the children continued to languish in foster
care. For example, in April, 2017, the commissioner filed motions to
review permanency plans in which she proposed that reunification of
the children with their biological parents was in their best interests.
In support of these plans, the commissioner filed a social study that
was completed by the department and recommended reunification with
a period of protective supervision. Safiyah objected to her permanency
plan on the grounds that she had bonded with her foster family, she
preferred to live with her foster family, she was "adamant about not
living" with either of her biological parents, and it was in her best
interests to remain with her foster family. Omar also objected to his
permanency plan. The respondent objected to this plan on, inter alia,
the ground that the mother was not seeking custody of the children and
was not a fit parent. In September, 2017, the court, Frazzini, J.,
approved these plans and ordered the commissioner to file
subsequently required motions to review the permanency plans on or
before June 7, 2018.
In June, 2018, despite the passage of nine more months during
which the goal of reunification with either parent still had not been
achieved, the commissioner filed motions to review the permanency
plans in which she continued to propose that reunification of the
children with their biological parents was in their best interests. In
support of these plans, the commissioner submitted a social study that

210a
was completed by the department and recommended reunification with
the mother, with a period of protective supervision, prior to the start of
the 2018-2019 school year. The children and the respondent objected
to these plans. Safiyah and Muneer based their objection, in part, on
their desire not to live with either biological parent and their desire to
continue to live with their foster parents. Omar objected to his plan, as
well. It is not clear from the record whether the court approved the
permanency plans that were filed in June, 2018, despite the fact that
the law requires approval of a permanency plan every twelve months
when 467children remain in the custody and care of the commissioner.
See General Statutes § 46b* 129 (k) (l)
(A). In light of the undisputed facts concerning the length of
time that the children were in the custody of the commissioner and
living uninterrupted in foster care, in the permanency plans we have
discussed, which were pursued in 2017 and 2018, the commissioner
was required by law to set forth a compelling reason to believe that
filing petitions to terminate the parental rights of the respondent and
the mother was not in the best interests of the children because the
children had been in care for more than fifteen months. The
commissioner did not do so. There is no dispute that the children were
never placed in the care of a relative or that the respondent and the
mother had been offered the services referred to in the plan to reunify.
In fact, every time that the court approved a permanency plan in this
case, it found that the department had made reasonable efforts at
reunification. When the commissioner filed the motions to review the
permanency plans at issue, she did not, by means of either her motions
or the social studies that were filed in support of the motions, advance
a compelling reason to support the belief that petitions to terminate
the parental rights of the respondent and the mother were not in the
best interests of the children. Moreover, with respect to the
permanency plan that the commissioner filed in 2017, the court
approved the plan over the objections of the children, who, as they did
at the time of trial, adamantly believed that it was in their best
interests to terminate the parental rights of the respondent and the
mother. General Statutes § 46b-129 (k) (4) provides^ “At a permanency
hearing held in accordance with the provisions of subdivision (l) of this
subsection, the court shall (A) (i) ask the child or youth about his or her
desired permanency outcome, or (ii) if the child or youth is unavailable
to appear at such hearing, require the attorney for the child or youth
to consult with the child or youth regarding the child's or youth's
desired permanency outcome and report the same to the court, (B)
review the status of the child or youth, (C) review the progress being
made to implement the permanency plan,
(D) determine a timetable for attaining the permanency plan,

211a
(E) determine the services to be provided to the parent if the
court approves a permanency plan of reunification and the timetable
for such services, and
(F) determine whether the commissioner has made reasonable
efforts to achieve the permanency plan. The court may revoke
commitment if a cause for commitment no longer exists and it is in the
best interests of the child or youth." It does not appear that the court,
when it approved the permanency plans in September, 2017, despite
the fact that the children had by then been in foster care for more than
two years, established a time table or modified the specific steps to
ensure permanency would be achieved before the approval of another
permanency plan would be required. The result was another lengthy
delay during which permanency in the lives of the children was not
achieved while the divorced parents remained in a holding pattern of
participating in services but not benefiting sufficiently such that one of
them could be reunified with the children. Thus, setting aside the
concerns raised by the respondent in the present claim, it appears that,
after the children had been in foster care beyond fifteen months, the
commissioner, by continuing to recommend plans for reunification
without setting forth a compelling reason to do so, did not comply with
her obligations under General Statutes § 17- 111a to file petitions to
terminate the respondent's parental rights with respect to these
children. Fifing for termination of parental rights thus became an
option the children had to undertake for themselves. Child-initiated
petitions are an extremely rare occurrence in the law of child
protection.

33 The respondent draws our attention to the fact that, during
closing argument, his counsel referred to the department's decision, at
the time of trial, to support the petitions as a "mystery."

1

212a

DOCKET NO. A.C. 43251 :

APPELLATE COURT

IN RE:
OMAR AMMARIDLIBI
(H14-CP15-011502-A), :
SUPERIOR COURT
SAFIYAH IDLIBI
(H14-CP15-011503-A),
CHILD PROTECTION
MUNEER IDLIBI
(H14-CP15-011504-A : SESSION AT MIDDLETOWN
AUGUST 13, 2019
MOTION FOR ARTICULATION
On July 29, 2019, the Hon. J. Mary-Margret D.
Burgdorff (“the trial court”) terminated the father’s
parental rights in an 83-page Memorandum of Decision
(“MOD”) referenced by page number herein. Almost every
finding in the MOD is ambiguous and lacks clarification as
to the factual basis relied upon by the trial court in
determining its findings. Exhibits and testimonies were
hardly referenced to back up the court’s findings. The
deficiencies in the trial court’s decision are in two pivotal
areas which shall be raised in this appeal: a* the factual
bases relied upon by the court in making its findings, and;
b- whether those factual bases predated the benchmark of
the specific steps issued in the prior proceeding, or whether
those factual bases occurred after the date of the specific
steps. The trial court has colossally failed to identify the
statutorily required clear and convincing factual bases it
relied upon to terminate the father’s parental rights. The
statutorily required factual bases upon which the court
relies are key determinants that have a direct impact on
the issues in this appeal.
I.

BRIEF HISTORY OF THE CASE
On July 29, 2015, the father filed an emergency ex parte
custody application with the court seeking the removal of
his three children from the custody of their mother. Due to
the seriousness of the allegations in the father’s affidavit,
the court issued an Order of Temporary Custody (“OTC”)

/I

213a
of the three minor children, Omar I, Safiyah I and Muneer
I (“the children”.) Two hours after being notified of the
OTC, the mother called 911 and alleged that the father was
actively assaulting her. Police officers arrived on scene,
found the mother bloodied and found a broken glass object
alleged to be the article of the alleged assault. The father
was subsequently arrested and charged with assault and
risk of injury to the minor children. An automatic
protective order, which is typically issued with such
charges, was issued.
On August 7, 2015, the Department of Children and
Families (“DCF”) filed petitions of physical neglect because
of the alleged incident of assault. A neglect trial was held
(after a prior mistrial.) The mother declared through her
counsel, that she was not seeking the custody of children
and that she was not contesting commitment.
The father called the police detective who investigated
the alleged assault to testify in the neglect trial. The police
detective (“detective Bilotto”) testified that it was very
unlikely that the father was physically present at the time
and place of the alleged assault when the mother reported
she was being actively assaulted. The detective further
testified that the blood pattern was not indicative of
someone who was assaulted and that the pattern of the
glass breakage did not indicate it was used as an article of
assault (exhibit J-48.) It was the detective’s findings which
prompted the court’s dismissal of the charges against the
father along with the automatic protective order associated
with said charges. The father maintained (and continues to
maintain) that he never assaulted the mother and that the
mother self-inflicted the wounds to fabricate and stage an
assault which never happened.
At the conclusion of the neglect trial, the court
adjudicated neglect because the court found that the
children were “living under conditions injurious to their
wellbeing at the time of the filing of the petition” regardless
of who caused the mother’s wounds. The court stated in its
decision that “either the father assaulted the mother, or
the mother did it to herself.” {Lobo, J. pp. 10, 11.)
The court did not discredit the father’s affidavit filed on
7/29/15, but rather referenced said affidavit in the

214a
adjudicatory phase of its final decision. The father
maintains that all the allegations in his affidavit were
truthful to the best of his knowledge. The most disturbing
allegation in the father’s affidavit was the mother’s affair
with a convicted pedophile. This allegation was later
substantiated in the police report, the detective’s testimony
and the private investigation report of the criminal
background of the mother’s paramour.
The Court did not order the father to take a domestic
violence program. The Court-assigned psychologist did not
recommend a domestic violence program for the father.
DCF did not recommend nor offered a domestic violence
program for the father either. The father does not have a
history of arrests, domestic violence or any other criminal
history.
After the conclusion of the neglect trial, the Court
issued orders, mostly in the form of specific steps issued to
the father, the mother and DCF. The court’s orders focused
on conflict resolution between the father and the mother.
The court found that the children were very attached to
their father and had repeatedly expressed a desire to
return to the care of their parents. Omar expressed he
would be happy if the judge ruled that he should go back to
the care of his father (exhibit J-2), and Safiyah was
hysterically begging to return to the care of her father two
months after removal (exhibit J-41.)
The court recognized the importance of preserving the
children’s faith which they grew up with, and ordered the
mother and foster parents to respect the religious
upbringing of the children.
The court ordered unsupervised visitation for the
children with their father “twice a week to be expanded
later.” The children’s attorneys’ filed motions to suspend
unsupervised visitation which were denied by the court.
The court found that the children developed a
misunderstanding of their father and of their religion while
in foster home and ordered DCF to address those
misunderstandings in therapy. Those misunderstandings
were never resolved as the children continued to reject

215a
their father and their faith. It was that rejection (and an
expressed desire to be adopted), which prompted the
attorneys for the children to file petitions for Termination
of Parental Rights (“TPR”) alleging a failure to
rehabilitate.
A court-approved Permanency Plan of reunification was
in effect at the time of the filing of the TPR and at the time
of the TPR trial. The Commissioner of the Department of
Children and Families (“DCF”) filed its fourth Permanency
Plan of reunification in its pretrial pleadings. However,
adopted the TPR later, on January 19, 2019.
DCF had selected and retained attorney Emily
Moskowitz as the co-parenting coordinator for the parents.
Attorney Moskowitz testified that while both parents
benefited and achieved significant progress, DCF
sabotaged her efforts by rejecting (the agreed upon)
recommendations of the court-assigned psychologist (“Dr.
Humphrey”), and by not committing to reunify the children
with the father as Dr. Humphrey recommended. The trial
court dismissed attorney Moskowitz’s testimony in its
entirety and blamed the father for the discontinuation of
the co-parenting sessions based on the court’s
interpretation of the mother’s hearsay (admitted as
statements of party opponent in the Social Study.)
DCF selected and retained Rabbi Andrew Hechtman to
resume co-parenting sessions with the parents. Rabbi
Hechtman corroborated attorney Moskowitz’s testimony
and testified that both parents benefited and achieved
great success with attorney Moskowitz, that they are no
longer in conflict and that they have a friendly relationship
with each other. The trial court ignored Rabbi Hechtman’s
testimony and found that both parents failed to co-parent.
II.

SPECIFIC FACTS RELIED UPON
The trial court found by clear and convincing evidence
that DCF made reasonable efforts to reunify. The trial
court found by clear and convincing evidence that the
father failed to achieve personal rehabilitation in
accordance with General Statutes § 17a-112(j) (3) (B) (ii).
The trial court found by clear and convincing evidence that
the father cannot be restored to a constructive useful role

216a
as a parent within a reasonable time considering the age
and needs of the children. The court further found by clear
and convincing evidence that the father failed to
acknowledge his responsibility in the children’s
adjudicated neglect. This appeal followed.
The Defendant father moves the court pursuant to
Connecticut Practice Book § 66-5 to more fully articulate
its legal and factual basis for its decisions as follows:
1- Articulate the factual basis the court relies upon in finding
that the father failed to acknowledge his role in the
adjudication of neglect with regards to:
a- The role that the father was supposed to acknowledge
based on the attendant findings (of the neglect trial) and;
b- The clear and convincing evidence proving that the father
failed to acknowledge that role after the issuance of the
specific steps.
2- Articulate the factual basis the court relies upon in
determining that the father’s coercive control continued up
to the commencement of the trial (p. 66.) Articulate whom
the father coerced up to the commencement of the trial.
3- Articulate what the father was supposed to rehabilitate
from, based on the attendant findings of the prior
proceeding.
4- Articulate the factual basis after the issuance of the
specific steps, which the court relies upon in finding that
the father coerced the children (p. 67.) If the factual basis
occurred prior to the date of the specific steps, articulate
the underlying adjudication and the attendant findings the
court relies upon in this determination.
5- Articulate the factual basis after the issuance of the
specific steps, which the court relies upon in determining
that it is deeply concerning for the father to have access to
his children (p.70.) If the factual basis occurred prior to the
date of the specific steps, articulate the underlying
adjudication and the attendant findings the court relies
upon in this determination.
6- Articulate the factual basis after the issuance of the
specific steps, which the court relies upon in proving clearly
and convincingly that the father continues to have a
significant lack of parenting skills including co-parenting
skills (p.65) that is indicative of a failure to rehabilitate.

217a
7- Articulate the factual basis the court relies upon in finding
that the father’s conduct after the issuance of specific steps
proves that the father attempted to alienate the children
from their mother or attempted to cast the mother in a
disparaging light in the eyes of the children (p.39.) If the
factual basis occurred prior to the date of the specific steps,
articulate the underlying adjudication and the attendant
findings the court relies upon in this determination.
8- Articulate the factual basis the court relies upon in finding
that the father did not properly supervise his children
(besides the [inadmissible] children’s hearsay.) If the
factual basis occurred prior to the date of the specific steps,
articulate the underlying adjudication and the attendant
findings the court relies upon in this determination.
9- Articulate the difference between control and coercive
control which the court relies upon in finding that the
father’s conduct after the issuance of the specific steps is
categorized as coercive control rather than control, which
proves clearly and convincingly a failure to rehabilitate to
the point that renders the father unable to restore a
constructive useful role as a parent within a reasonable
time considering the age and needs of the children.
lOArticulate whom the father attempted to coerce (pp.67-69)
after the issuance of the specific steps including the names
of all the providers whom the father coerced and how said
coercion adversely affected the children to the point that
renders the father unable to restore a constructive useful
role as a parent within a reasonable time considering the
age and needs of the children as the statute requires. If the
factual basis occurred prior to the date of the specific steps,
articulate the underlying adjudication and the attendant
findings the court relies upon in this determination.
11-Articulate the factual basis the court relies upon in finding
that the father coerced the providers identified in
paragraph 10.
12-Articulate the factual basis the court relies upon in finding
that the father “later contacted the Plymouth Police
Department on at least three occasions requesting that
Mother be charged for filing a false report and three counts
of Risk of Injury regarding the July 29, 2015 domestic
violence incident” (p.12.) Articulate whether any of those
three different occasions occurred after the date of the
issuance of the specific steps.

218a
13'Articulate the factual basis the court relies upon in
determining that the father “also falsely reported to
Attorney Moskowitz that Mother was not seeking custody
of the children, and that she was unfit to parent the
children.” (p.21.)
14-Articulate the factual basis and the legal grounds the court
relies upon in finding that attorney Moskowitz was aligned
with the father (such as a legally disqualifying interest,
proof of bias, or grounds of impeachment, etc.) that gave
the court legal grounds to completely disregard the entire
testimony of attorney Moskowitz (p.21.)
15‘Articulate the factual basis the court relies upon in finding
that Attorney Moskowitz took Father’s side and accepted
Father’s misrepresentation (p.21.) Articulate the nature of
that misrepresentation.
16-Articulate the factual basis the court relies upon in finding
that Father misrepresented that the children were being
returned to his care (p.2l) [which was the recommendation
of court-assigned psychologist, Dr. Stephen Humphrey, see
exhibit J-5.]
17-Articulate the factual basis the court relies upon in finding
that “the affidavit filed with the OTC on July 29, 2015,
“contained clear misrepresentations, falsehoods, and
inconsistencies, including extremely disturbing aspersions
as to Mother, all of which have damaged Father’s
credibility in eyes of this court” (p.24.) Articulate the
nature of the clear misrepresentations, falsehoods, and
inconsistency s.
18-Articulate the factual findings the court relies upon in
determining that the father cannot meet the children’s
developmental, emotional and medical needs (p.65.)
Articulate the clear and convincing evidence as to the
father’s
deficiencies
in meeting the
children’s
developmental, emotional and medical needs which clearly
and convincingly persisted beyond the date of the issuance
of the specific steps.
19-Articulate the factual basis after the issuance of the
specific steps, which the court relies upon in determining
clearly and convincingly that “there is abundant evidence
that the father assaulted the mother.” Articulate the
nature of that abundant evidence.
20-Articulate the factual findings the court relies upon in
determining that the father did not “gain the necessary
insight and ability to care for their children given their

219a
ages and needs including their special needs, within a
reasonable period of time” (p.65.)
21-Articulate the factual basis after the issuance of the
specific steps, which the court relies upon in determining
clearly and convincingly that it is “abundantly clear that
Father has always put his interests first, and the children’s
second” (p.67.) If the factual basis occurred prior to the date
of the specific steps, articulate the underlying adjudication
and the attendant findings the court relies upon in
determining that the father has always put his interests
first, and the children’s second.
22-Articulate the factual basis after the issuance of the
specific steps, which the court relies upon in determining
clearly and convincingly that the father’s” actions have
clearly been damaging to the children and to their
relationship with Mother.” (p.67.) Articulate the nature of
those actions that have clearly been damaging to the
children and to their relationship with Mother. If the
factual basis occurred prior to the date of the specific steps,
articulate the underlying adjudication and the attendant
findings the court relies upon in this determination.
23-Articulate the factual basis after the issuance of the
specific steps, which the court relies upon in determining
clearly and convincingly that “it is abundantly clear the
Father has utterly failed to gain sufficient insight into his
ongoing need to exert control (p.67.) Articulate whether the
‘control’ referenced here is coercive control. If coercive,
articulate who did the father had an ongoing need to coerce
and the factual basis of said coercion.
24-Articulate the factual basis and the legal grounds the court
relies upon in determining that the father’s willingness to
help the mother financially and grant her access to the
children if her parental rights were terminated, is
indicative of the father’s “ongoing desire to control the
mother” (p.68.)
25-Articulate the factual basis the court relies upon in
determining that the father’s providing attorney
Moskowitz with the police reports (p.2l) amounts to
providing her with false information and/or amounts to
coercing attorney Moskowitz.
26-Articulate the factual basis the court relies upon in
determining that the father provided attorney Moskowitz
with false information and the nature of the falsity of that
information.

220a
27'Articulate the factual basis the court relies upon in
determining that the father failed to adjust his
circumstances, conduct or conditions to make it in the best
interests of the children to return to his care (p.75.) If the
factual basis occurred prior to the date of the specific steps,
articulate the underlying adjudication and the attendant
findings the court relies upon in this determination.
28'Articulate the factual basis the court relies upon in
determining that the father has not sufficiently fulfilled his
obligations pursuant to the specific steps ordered by the
court (p.75.) Articulate which obligations the father did not
fulfill.
29'Articulate the factual basis the court relies upon in
determining that the father has ongoing mental health and
parenting issues (p.75.)
III.

LEGAL GROUNDS
This motion is brought pursuant to Practice Book §§ 6110 and 66-5 and the Father’s rights to due process and
equal protection. Practice Book § 66-5 provides that the
Appellant can file a motion seeking an articulation of the
decision of the trial court. “[A]n articulation is appropriate
where the trial court’s decision contains some ambiguity or
deficiency reasonably susceptible of clarification ...
[Pjroper utilization of the motion for articulation serves to
dispel any ... ambiguity by clarifying the factual and legal
basis upon which the trial court rendered its decision,
thereby sharpening the issues on appeal.” (Internal
quotation marks omitted.) Alliance Partners, Inc. v. Oxford
Health Plans, Inc. 263 Conn. 191, 204, 819 A.2d 227 (2003);
see also Miller v. Kirshner, 225 Conn. 185, 208, 621 A.2d
1326 (1993). Cable v. Bic Corp., 270 Conn 433, 444 45, 854
A.2d 1057, 1065 (2004). “It is the responsibility of the
appellant to provide an adequate record for review.”
Practice Book §61-10. In order to ensure an adequate
record for review, the appellant may move for articulation
pursuant to Practice Book §4051.2 (now 66-5). Lockwood v.
Professional Wheelchair Transportation, Inc., 37 Conn.
App. 85, 90, 654 A.2d 1252, cert, denied, 233 Conn. 902,
657 A.2d 641 (1995), Viets v. Viets, 39 Conn App. 610, 612,
666 A.2d 434, 435-36 (1995).
Courts identify the specific steps as the benchmark for
measuring the appropriateness of termination of parental

221a
rights. “[T]he specific steps provide a benchmark by which
the court measures whether . reunification . is appropriate
(emphasis supplied) In re Allison G., 276 Conn. 146, 161,
883 A.2d 1226 (2005).
WHEREFORE, the father respectfully requests that
articulation be rendered as requested herein.

Respectfully submitted,
F ather-Defendant/Appellant
/Ammar Tdlihi/

AMMAR A. IDLIBI

222a
DOCKET NO. A.C. 43251 :

APPELLATE COURT

IN RE:
OMAR AMMARIDLIBI
(H14-CP15-011502-A),
:
SUPERIOR COURT
SAFIYAH IDLIBI
(H14-CP15-011503-A),
:
CHILD PROTECTION
MUNEER IDLIBI
(H14-CP15-011504-A
: SESSION AT MIDDLETOWN
AUGUST 26, 2019
MOTION FOR REVIEW OF FATHER’S MOTION FOR
ARTICULATION
The father claims substantial ambiguity in the trial
court’s findings. The factual bases which the trial court
relied upon are almost completely missing. Almost all trial
court’s findings are ambiguous with relation to the date of
the issuance of the specific steps, are ambiguous with
relation to the underlying adjudication and the attendant
findings and are ambiguous as to the bearing on a finding
of a failure to rehabilitate. The trial court’s findings are
ambiguous as to the definition of failure to rehabilitate and
are ambiguous as to the definition of coercive control.
Several of the trial court’s findings are speculative.
I.

BRIEF HISTORY OF THE CASE

On August 7, 2015, the Department of Children and
Families (“DCF”) filed petitions of physical neglect because
of an alleged incident of assault.
On December 18, 2017, the court {Lobo, J.) issued an
oral decision adjudicating the children neglected and
committing them to DCF. On July 29, 2019, the Hon. J.
Mary-Margret D. Burgdorff (“the trial court”) terminated
the father’s parental rights in a Memorandum of Decision
(“MOD”) issued on July 29, 2019. The father followed with
this appeal on 8/2/2019. The father filed his Motion for
Articulation on August 13, 2019.
The Department of Children and Families (“DCF”) filed
its objection on August 21, 2019. All what DCF stated in its

223a
objection was but a recital of the court’s ambiguous
findings which lack the supporting factual bases and legal
grounds that the court relied upon. The court denied the
father’s Motion for Articulation on August 23, 2019.
Pursuant to Practice Book §§ 60-5, 61-10, 66-7, the
father would request that the Appellate Court review his
Motion for Articulation filed on August 13, 2019 and direct
the trial court to articulate
IV.

SPECIFIC FACTS RELIED UPON
The trial court never articulated it in its MOD whether
its factual findings occurred before or after to the date of
the issuance of the specific steps. If any of those factual
bases occurred after the date of the issuance of the specific
steps, the court needs to articulate that. The distinction
must be drawn. This is a termination of parental rights on
the basis of failure to rehabilitate. Our Appellate Court
held that the issuance of the specific steps to facilitate
reunification is a prerequisite to any TPR proceeding on
the basis of failure to rehabilitate. The specific steps is the
benchmark which the court uses to assess a parent’s
rehabilitation, see the legal grounds section in this motion.
The court in the prior proceeding for the neglect trial
(’’the prior court”) (Lobo, J.) stated in its decision that
“either the father assaulted the mother, or the mother did
it to herself.” {Lobo, J. pp. 10, 11.) The criminal court
dismissed the assault charges against the father with
prejudice. The prior court did not make a finding that the
father assaulted the mother. The TPR trial court
relitigated this matter, contradicted the prior court’s
findings and found that the father assaulted the mother
without articulating the factual basis or the legal grounds
it relied upon in making this inconsistent determination.
After the conclusion of the neglect trial, the Court
issued orders that mainly focused on conflict resolution
between the father and the mother.
Co-parenting coordinator attorney Emily Moskowitz
testified that both parents benefited and achieved
significant progress and that DCF sabotaged her efforts
.Without articulating the factual basis or legal grounds it
relied upon, the trial court dismissed attorney Moskowitz’s

224a
testimony in its entirety and blamed the father for the
discontinuation of the co-parenting sessions.
Co-parenting coordinator Rabbi Andrew Hechtman
testified and corroborated attorney Moskowitz’s testimony.
Without articulating the factual basis or legal grounds it
relied upon, the trial court disregarded Rabbi Hechtman’s
testimony and found that both parents failed to co-parent.
Without articulating the factual basis it relied upon, the
trial court determined that “the father’s affidavit on July
29, 2017 “contained clear misrepresentations, falsehoods,
and inconsistencies, including extremely disturbing
aspersions as to Mother all of which have damaged the
Father’s credibility in the eyes of this court.” (p.24.)
The trial court determined that: “the father had a
significant lack of parenting skills (p.65)” without new
evidence and without articulating the factual basis it relied
upon.
The mother’s unsubstantiated allegation of improper
sexual contact between the children and their older sibling
“Oais” in 2011 (at 11 years old), which was investigated by
DCF, was unsubstantiated by DCF and was documented as
such in the investigation protocol (ex. J*6), and was
presented before the court in the prior proceeding. The
court (Lobo, J) did not give credence to this allegation by
the mother. Without articulating the factual basis or legal
grounds it relied upon, the trial court credited the mother’s
allegations from 2011 and ordered father’s visits with the
children be supervised.
Without articulating the factual basis it relied upon, the
trial court determined that the father coerced the children
(p.67). No new evidence was presented regarding this
matter and the court failed to articulate the factual basis it
relied upon in reaching this determination.
The trial court determined “that it is deeply concerning
for the father to have access to the children (p.70.) No new
evidence was presented regarding this matter and the trial
court failed to articulate the factual basis it relied upon in
reaching this determination.

225a
The prior court determined that the reason the father
needed individual therapy for the purpose of “addressing
internal familial strife and conflict” (pp. 15-16.) The trial
court relitigated this matter and determined that the
father has ongoing mental health issues (p.75). No new
evidence was presented regarding this matter and the trial
court failed to articulate the factual basis it relied upon.
Contrary to what DCF states in its objection to father’s
Motion for Articulation, what the trial court recounted
from pages ten through fifty-eight was not factual basis
supporting its findings, it was mostly reconsideration and
reiteration of the prior proceeding with substantial
ambiguity as to the finding of failure to rehabilitate which
is the crux of the TPR trial.
Rabbi Hechtman testified that both parents have
significantly benefited from co-parenting services, have
successfully accomplished the goals that the court
identified for said services and are no longer in conflict. The
trial court failed to articulate the impact of Rabbi
Hechtman’s testimony on the finding of a failure to
rehabilitate.
Contrary to what DCF alleges in its objection to father’s
Motion For Articulate (on page 4), the court referenced
some of the findings of the court ordered evaluator, Dr.
Stephen Humphrey which was conducted only 3 months
after the issuance of the specific steps. Yet, nothing in that
report indicated a finding of “coercive control.” There is a
world of difference between ‘control’ and ‘coercive control’
which the trial court failed to articulate.
The trial court did not articulate what the father was
supposed to rehabilitate from and how the father failed to
achieve such rehabilitate, or how such failure supports an
inability to restore a constructive useful role as a parent
within a reasonable time considering the age and needs of
the children as the statute requires.
The trial court’s speculation goes as far as predicting
the future and guessing what is on the father’s mind: “The
father’s willingness to help the mother financially and
grant her access to the children if her parental rights were
terminated, is indicative of the father’s ongoing desire to

226a
control the mother” (p.68.)
How is the father supposed to proceed with his appeal
with such high level of ambiguity and speculation?
The trial court never stated a single factual basis of
failure to rehabilitate. The trial court never articulated a
single factual basis of coercive control exerted by the father
on the mother (or on anyone) after the date of the specific
stapes.
Contrary to what DCF alleges in its objection, the trial
court never articulated the factual basis or the legal
grounds it relied upon in disregarding/discrediting the
testimonies of almost every witness in the trial, not just Dr.
Lothstein, Dr. Gockel and Attorney Moskowitz.
Contrary to what DCF alleges in its objection, the court
never analyzed any factual findings in the adjudicatory
portion of its decision at pages fifty-nine to seventy-three
according to the appropriate statutory provisions and
interpretation of case law and how those provisions and
case law apply to a finding of a failure to rehabilitate by
the father.
Contrary to what DCF alleges in its objection, the trial
court never articulated the factual basis in determining the
father’s level of rehabilitation in the context of a child's
specific needs and also in the context of a child's sense of
time and need for permanency and stability. Ironically, the
party who is referencing the significance of time is the
same party who is solely responsible for keeping the
children without permanency for four years.
Contrary to what DCF stated in its objection, the trial
court never articulated the factual findings it relied upon
regarding the presenting issues in the case that are
indicative of a failure to rehabilitate.
Contrary to what DCF stated in its objection, the trial
court never articulated the factual findings it relied upon
regarding in its finding that the father had not gained the
necessary insight to put himself in a position to safely care
for the children in the foreseeable future. The father

227a
fervently seeks that articulation.
Contrary to what DCF stated in its objection, the trial
court never articulated the factual findings it relied upon
in finding that the father denied his responsibility in the
children’s removal or the children’s neglect. The trial court
never articulated the factual basis it relied upon in
determining that the father acknowledgment is belated or
limited and why it is belated or limited. Contrary to what
DCF states in its objection, the trial court never articulated
any factual basis supporting a finding that the father
continued to make efforts to coercively control the mother.
The request for clarification is not an argument with
the trial court as DCF alleges, it specifically and explicitly
a request for articulation which the father is entitled to by
the law in order to proceed with his appeal and perfect the
record for appellate review.
V.

LEGAL GROUNDS
The father relies on Practice Book §§ 60*5, 61-10, 66-7,
and the requirement that the Appellant create an adequate
record for review, in presently moving for review of the
lower court's inadequate articulation. "It is well
established that [i]t is the appellant's burden to provide an
adequate record for review.... It is, therefore, the
responsibility of the appellant to move for an articulation
or rectification of the record where the trial court has failed
to state the basis of a decision." (Internal citations
omitted.) D'Angelo Dev. and Constr. Corp. v. Cordovano,
121 Conn. App. 164, 187 (2010).
“It is the sole responsibility of the appellant to provide
this court with an adequate record for review. Practice
Book § 61-10. Practice Book § 66-5 permits an appellant to
seek an articulation by the trial court of the factual and
legal basis on which it rendered its decision. [A]n
articulation is appropriate where the trial court's decision
contains some ambiguity or deficiency reasonably
susceptible of clarification.... An articulation may be
necessary where the trial court fails completely to state any
basis for its decision ... or where the basis, although stated,
is unclear.... The purpose of an articulation is to dispel any
... ambiguity by clarifying the factual and legal basis upon

228a
which the trial court rendered its decision, thereby
sharpening the issues on appeal. [W]e will, in the absence
of a motion for articulation, assume that the trial court
acted properly.” (Internal citations and quotation marks
omitted.) See, In re G.S., 117 Conn. App. 710, cert, denied,
294 Conn. 919 (2009).
The line must be drawn between evidence relied upon
before the date of the issuance of the specific steps and
evidence relied upon after the issuance of the issuance of
the specific steps! the trial court should be aware of that.
“[T]he specific steps provide a benchmark by which the
court measures whether . reunification . is appropriate .
(emphasis supplied)” In re Allison G., 276 Conn. 146, 161,
883 A.2d 1226 (2005). “The court looks to whether the
parent complies with the various service providers and
whether the parent benefited from the services.” See In re
G.S., 117 Conn. App. 710, 718, 980 A.2d 935.
Should the court choose to consider evidence based on
facts that occurred prior to the specific steps, it can only do
so if said facts were directly related to the underlying
adjudication and the attendant findings. In TPR
proceedings on the basis of failure to rehabilitate, the trial
court cannot rely on factual basis that occurred prior to the
date of the specific steps to assess the parent’s compliance
with those steps and any benefit that parent might have
achieved on that basis. “Although the specific steps provide
a benchmark by which the court measures whether either
reunification or termination of parental rights is
appropriate, the court necessarily will consider the
underlying adjudication and the attendant findings. See In
re Devon B., supra, 579. In re Allison, 883 A.2d 1226, 1235
(Conn. 2005) (emphasis supplied.) That is a “consideration”
only, and only of the underlying adjudication and the
attendant findings.
“The trial court improperly re-considered and rejected
the underlying finding of neglect made in a previous
proceeding.” In re Stephen A£,109 Conn. App. 644 (2008).
The father seeks an articulation on this distinction. The
father’s Motion for Articulation seeks the court to
articulate whether a) its findings relied upon factual basis

229a
which occurred after the date of the issuance of the specific
steps for the court to exercise its statutory authority to
terminate the father’s parental rights on the basis of
failure to rehabilitate, and b) to articulate whether the
factual bases predated the specific steps, and if so, whether
they are in line with the underlying finding ofneglect made
in a previous proceeding, fd. It is of utmost importance for
the purpose of this appeal to identify whether the trial
court remconsidered and rejected the underlying finding of
neglect made in the previous proceeding, fd. This
ambiguity directly affects the issues raised in this appeal.
In termination proceedings, the trial court can NOT
rely on evidence admitted before the issuance of the specific
steps to terminate parental rights on the grounds of failure
to rehabilitate because specific steps are a prerequisite to
litigating TPR. “We disagree with the trial court's
conclusion that the prior provision of specific steps is not
required in termination proceedings based on § 17a—112
(j)(3)(B)(i).” In re Elvin G., 78 A.3d 797, 801 (Conn. 2013).
The Statutes do not permit TPR on the basis of a
parent’s failure to rehabilitate without the prior issuance
of specific steps to facilitate reunification. “Trial court must
provide specific steps necessary to facilitate reunification
of parent and child in any case in which the Commissioner
of Children and Families seeks to terminate parental
rights on the ground of a parent’s failure to rehabilitate.”
In re Elvin G. (2013) 78 A.3d 797, 310 Conn. 485.
"[W]e note that specific steps are considered to be “fair
warning” to a parent of the potential termination of
parental rights in subsequent proceedings.” In re Jeffrey
C., 64 Conn. App. 55, 62, 779 A.2d 765 (2001). “Indeed, the
failure to comply with specific steps ordered by the court
typically weighs heavily in a termination proceeding.” In re
Devon B., supra, at 584, 825 A.2d 127.
“Our case law, however, places a greater emphasis on
what steps the parent was ordered to take and to what
degree the parent complied with these steps.” See In re
Shane M, 318 Conn. 568, 586-87, 122 A.3d 1247 (2015)
(emphasis supplied.) “In sum, the prior provision of specific
steps is required in any case in which the commissioner
seeks to terminate parental rights on the ground of a

230a
parent's failure to rehabilitate... Accordingly, the trial
court's conclusion to the contrary was improper. ”In re
Elvin G., 78 A.3d 797, 810 (Conn. 2013).
The trial court relied on speculation and conjuncture in
many of its findings. “Speculation and conjecture have no
place in appellate review. As we have often observed: Our
role is not to guess at possibilities, but to review claims
based on a complete factual record developed by a trial
court.... Without the necessary factual and legal
conclusions furnished by the trial court ... any decision
made by us respecting [the respondent's claim] would be
entirely speculative.” (Internal citations and quotation
marks omitted). See, In re Samantha S., 120 Conn. App.
755, cert, granted, 297 Conn. 913 (2010), dismissed, 300
Conn. 586 (2011).
WHEREFORE, the father respectfully requests that
the Appellate Court, review the father’s Motion for
Articulation and direct the trial court to articulate the
ambiguities in its decision per the Father’s Motion for
Articulation.

Respectfully submitted,
Father-Defendant/Appellant
/Ammar Idlibi/
AMMAR A. IDLIBI

f
231a
APPELLATE COURT
STATE OF CONNECTICUT
AC 43251
IN RE OMAR I. ET AL.
SEPTEMBER 25, 2019
ORDER
THE MOTION OF THE DEFENDANT-APPELLANT,
FILED AUGUST 26, 2019, FOR REVIEW OF FATHER'S
MOTION FOR ARTICULATION, HAVING BEEN
PRESENTED TO THE COURT, IT IS HEREBY
ORDERED THAT REVIEW IS GRANTED, BUT THE
RELIEF REQUESTED THEREIN IS DENIED.
BY THE COURT,
/Rene Robertson/
RENE L. ROBERTSON
ASSISTANT CLERK-APPELLATE
NOTICE SENT: September 25, 2019 HON. MARYMARGARET D. BURGDORFF COUNSEL OF RECORD
CLERK, SUPERIOR COURT,
H14 CP15-0011502-A
H14 CP15-0011503 A
H14 CP15 0011504-A
192369

232a
SUPREME COURT
STATE OF CONNECTICUT
PSC-190471
IN RE OMAR I. ET AL.
ORDER ON PETITION FOR CERTIFICATION TO
APPEAL
The petition by the respondent father for certification to
appeal from the Appellate Court, 197 Conn. App. 499 (AC
43251), is denied.
Ammar I., self-represented, in support of the petition.
Brian Thomas Walsh, assigned counsel, and Carolyn
Signorelli, assistant attorney general, in opposition.
Decided June 23, 2020
By the Court,
/Rene L. Robertson/
Rene L. Robertson
Assistant Clerk — Appellate
Notice Sent: June 23, 2020
Petition Filed: June 5, 2020
Hon. Mary-Margaret D. Burdgorff
Clerk, Appellate Court
Reporter of Judicial Decisions
Staff Attorneys' Office
Counsel of Record
Clerk, Superior Court, H14H CP15 0011502-A, H14H
CP15-0011503-A, H14H CP15-0011504-A

RECEIVED
SEP 16 TOO
OFFICE OF THE CLERK
SUPREME COURT IIS

